<html>
<title> - SPYWARE</title>
<body><pre>[Senate Hearing 109-1090]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1090
 
                                SPYWARE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 11, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
61-887                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aec9dec1eecddbdddac6cbc2de80cdc1c380">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 11, 2005.....................................     1
Statement of Senator Allen.......................................     3
Statement of Senator Burns.......................................     1
Statement of Senator Boxer.......................................     5
Statement of Senator Bill Nelson.................................     5
Statement of Senator Smith.......................................     2
Statement of Senator Snowe.......................................    35

                               Witnesses

Hughes, J. Trevor, Executive Director, Network Advertising 
  Initiative.....................................................     9
    Prepared statement...........................................    11
Moll, C. David, Chief Executive Officer, Webroot Software, Inc...    14
    Prepared statement...........................................    16
Schwartz, Ari, Associate Director, Center for Democracy and 
  Technology (CDT)...............................................    19
    Prepared statement...........................................    21
Wyden, Hon. Ron, U.S. Senator from Oregon, prepared statement....     7

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    41
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    C. David Moll................................................    41
    Ari Schwartz.................................................    42


                                SPYWARE

                              ----------                              


                        WEDNESDAY, MAY 11, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Conrad Burns, 
presiding.

            OPENING STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. We will call the Committee to order--I know 
the witching hour is here. I would like to get started on time, 
because we sure won't make up any time later on during the day. 
I welcome everybody here today.
    We are here to discuss the growing problem with spyware. 
Even though Chairman Stevens can't be here today, I'd like to 
thank him for calling this hearing, and allowing us to proceed 
to address all the challenges that we face in the computing 
industry today. It's my pleasure to be joined by our witnesses. 
Mr. Hughes of the Network Advertising Initiative, Mr. Moll with 
Webroot Software, and Mr. Schwartz with the Center for 
Democracy and Technology.
    Over the past few years, we haven't always been able to 
work in Congress with folks like yourselves that have been 
critical to our success in managing the booming communications 
infrastructure, so I thank you for your time, and for being 
here today.
    Spyware is an increasingly worrisome threat to our every 
day activities in cyberspace. Spyware refers to software which 
secretly collects information about computer users and shares 
it with others over the Internet without those users' knowledge 
or consent.
    This sneaky software is often used to track the movements 
of consumers online and even steal passwords, social security 
numbers, bank account information, and other highly sensitive 
personal data. Spyware can also be used to turn a person's 
computer into a tool that participates in criminal activity 
directed by a third party.
    The problems posed by spyware, and to the security of 
cyberspace in general, are thus real and they are urgent. As 
was the case with spam several years ago, I believe the 
solution lies in the right mix of technical solutions and 
tougher legislation. Both will be necessary to make a 
meaningful dent in the quantity and the types of malicious code 
that get downloaded into the private computers of businesses 
and citizens, without their consent. However, we also have to 
be careful not to throw out the baby with the bath-water, by 
making many ordinary and positive types of online business' 
practices illegal. The area of adware in particular is an 
important gray area to keep an eye on. How exactly are online 
advertisements served up to the users, and what kind of consent 
is most appropriate? Most adware models are good for cyberspace 
because it's important to have a robust and responsive 
advertising component for most commercial online services. I, 
being an old broadcaster, understand that.
    But when it comes to installing software on private 
computers, we have to make sure we don't allow some of the more 
unscrupulous players out there to spoil the field for all the 
good actors who are just trying to make cyber businesses more 
efficient.
    As many of you are aware, Senator Wyden and I have been 
working on an anti-spyware bill for more than a year now, in 
fact 2 years, to be right honest with you. The underlying 
principle of our legislation is that a person should have the 
right to know what is happening to his or her own piece of 
property. I also would like to thank Representatives Barton and 
Bono for their continued efforts on this issue in the House of 
Representatives. Their approach is similar to ours, and we look 
forward to working together with them in the future. The Spy 
Block bill, S. 687, that we now have in front of us includes a 
great deal of industry and consumer group input, and we believe 
it to be a major step toward a resolution of the problem at 
hand.
    In the 108th Congress a similar version of that bill was 
marked up out of this committee unanimously. Given the combined 
effort involved, Senator Wyden and I truly are hopeful that we 
can do it early this session. We also have the input of Senator 
Allen and many other folks who are deeply interested in this 
issue. We plan to work with everybody on this committee to get 
a product that we all can be proud of, but also a product that 
gets the job done.
    As we review these issues, it's important to understand 
that a person's or business's computer should be viewed as 
private property and that the rightful owner should be able to 
control access to it. In the same way that you should have the 
right to authorize access to your home for maintenance or 
upgrades, you should have the right to control who installs 
software on your computer.
    So, I thank you very much for coming today. And now I will 
call on Senator Smith from Oregon if he has a statement.

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. I appreciate your 
holding this hearing. It's a very important topic. I share your 
concern on the issue. I have a keen interest in spyware, and 
have continued to work on these issues to protect consumers and 
businesses.
    I was stunned to learn that according to a survey by the 
National Cyber Security Alliance and America Online, 80 percent 
of all home computers are currently infected with spyware. 
Furthermore 80 percent of the owners of infected computers are 
not aware their computers are, in fact, infected. Nonetheless 
consumers are clearly concerned about the issue. Consumers have 
downloaded free versions of two of the most widely used anti-
spyware programs over 45 million times.
    Although spyware has been used for many deceitful purposes, 
including theft of personal information from infected 
computers, the technology behind it has been used toward 
legitimate ends, as well. The complete regulation of an entire 
category of technology or product can have many unintended and 
serious consequences.
    If the definition of spyware becomes too wide, legislation 
adopted in haste might not take into account the evolution of 
future technologies and, in turn, stifle innovation. I believe 
we need to limit the abuse of the deceitful practices by 
dishonest users, but at the same time, allow industry the 
ability to build on, and improve, existing technologies. I'm 
aware of several technologies that we learned from Mr. Gates 
the other day, that was very encouraging. To that end, I am 
working with Senator Allen to develop legislation that 
increases the FTC's current authority to enforce existing laws 
and allows the agency to also coordinate with law enforcement 
overseas, to prosecute deceptive online activities.
    We need to give the FTC the necessary tools to go after the 
individuals who are already violating current Federal law. I 
agree that we do need to address the most egregious activities 
and behaviors without placing unnecessary restrictions on the 
entire technology industry. I also believe that an appropriate 
balance can be found between limiting the legitimate use of 
existing technologies, and allowing for the technology industry 
to grow, expand and innovate.
    As we continue to address this issue, Mr. Chairman, I look 
forward to working with you and all my colleagues on this 
committee to find the right balance in a timely manner. Thank 
you.
    Senator Burns. Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, and I thank you for 
calling today's hearing, and thank all our witnesses for 
appearing this morning as well.
    Since the last time the Committee considered this issue, 
consumer complaints and concern about this irritating, volatile 
spyware issue has increased, with only a few consumers figuring 
out how to combat it. As Senator Smith stated, the AOL and 
National Cyber Security Alliance, in October of 2004--I won't 
repeat his statistics--but the average computer had more than 
90 spyware programs on it. Dell Computer said by the end of 
2003 they reported that spyware was the number one consumer 
complaint coming into their call centers. Most alarming, last 
year nearly half of online identity theft cases were caused or 
initiated by some sort of spyware program.
    All of us can agree that under no circumstances is it 
acceptable to deceptively monitor a consumer's activities 
online. In fact, false and misleading practices associated with 
spyware threaten consumer confidence and harm the Internet as a 
viable medium for communications, and electronic commerce. In 
examining this offensive spyware issue which causes 
aggravation--it insults some people and some of the adware in 
particular--and additionally you get degraded computer 
performance. I believe we need to encourage, to the greatest 
extent possible, market-driven technology solutions, as well as 
strengthen the enforcement of existing Federal laws.
    Every legitimate business associated with the Internet, in 
my view, has an interest in eliminating spyware. A recent FTC, 
or Federal Trade Commission, report suggests that the rapid 
technology advancements being made to combat spyware such as 
fire walls, filters, anti-spyware tools, improved Internet 
browsers, and operating systems are constantly providing newer 
and more affordable protections to consumers whether at home, 
or at the place of business. The Internet's viability depends 
on consumers' satisfaction and consumers need to be made aware 
of these advancements, so they can be protected from harmful 
spyware applications.
    Because the fraudulent and deceptive installation of 
spyware programs is presently a violation of Federal law, such 
as the Federal Trade Commission Act, and the Computer Fraud and 
Abuse Act, Congress must focus its efforts on adequate 
resources and penalties to combat the problem. Federal 
officials believe they already have adequate authority under 
existing statutes to prosecute spyware purveyors. Law 
enforcement is not stymied by the lack of Federal jurisdiction, 
but rather from the lack of overall resources. That's why today 
I'm introducing legislation with Senators Smith and Ensign, 
which would provide Federal law enforcement officials with the 
resources and tools necessary to increase the breadth and 
strength of anti-spyware enforcement efforts. Our legislation 
strikes the careful balance of pursuing illegal, wrongful 
behavior, while not stifling or limiting technology innovation 
or legitimate online transactions.
    Specifically, since spyware violators are not limited to 
state or national borders to perpetrate their illegal activity, 
the legislation will set a national standard for the unfair and 
deceptive practices associated with spyware. Additionally, our 
legislation will provide the Federal Trade Commission with 
authority to share and coordinate information with foreign law 
enforcement officials to improve their ability to bring cases 
and prosecute international spyware purveyors. Last, our 
legislation addresses the most egregious activities and 
wrongful behavior conducted via spyware by significantly 
increasing the civil and criminal penalties, including 
disgorgement. In other words, get after the ill-gotten gains of 
these criminals.
    Mr. Chairman, I really look forward to hearing our 
witnesses opinions on such an approach, and as I indicated, I 
would prefer a market-driven solution, but believe Congress can 
take an active role, in aiding law enforcement officials and 
providing adequate resources to combat this problem, while also 
increasing and toughening the penalties against such illegal 
activity. I would actually like the disgorged profits, 
proceeds, these ill-gotten gains to be used to actually fund 
further prosecution of spyware purveyors. And I look forward to 
working with you, Mr. Chairman and Senator Burns, because 
you've shown great leadership on this effort, and the rest of 
the Committee, we do need to work to address these concerns 
raised today.
    Thank you.
    Senator Burns. Thank you very much. Mr. Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I am delighted to be a co-
sponsor, along with you, Senator Wyden who's sitting right out 
there in the front row, and Senator Boxer on this Spy Block 
Act, it is most, most important. It's interesting that this 
hearing is being held the day after we just had the hearing in 
this very same Committee on ID theft. And all of this, all of 
these problems are converging at once because of the advance of 
technology, that people are stealing our identity, people are 
intruding into our computers, and one of the things that's 
happening in that intrusion of computers, be it by phishing, or 
be it by surreptitiously putting a program in, that they are 
starting to poison the minds of our children. When suddenly up 
flashes this Internet porn site. And so, this is an extremely 
important hearing that we are having, the legislation that we 
filed is extremely important. Just like yesterday's hearing on 
what we are going to do about people stealing our identity.
    It's not like you could go out and shred anything that you 
were throwing away, or put it in a burn bag, because all of 
this information is in cyberspace now. And the sophisticated 
thieves penetrating that can virtually take over our identity, 
and that's the subject of this hearing, they can absolutely 
penetrate into the most private domain that we have, which is 
our home, and suddenly implant stuff that we don't wish to have 
implanted. And so I am really looking forward to this hearing.
    Senator Burns. Thank you very much. There's an old farming 
term about that. It is the harvest by unscrupulous folks. And 
that's what we have here. Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so much.
    I want to also welcome Senator Wyden who I see there. We 
miss you on this committee, but we know your interest remains. 
I'm very happy to see you here.
    Mr. Chairman, thank you for holding this hearing. I was 
proud to join with you and Senator Wyden in reintroducing the 
Spy Block Act, which I now am happy to know that Senator Nelson 
is a strong advocate of. Our legislation is designed to address 
increasing concerns that I have heard coming from California, 
and other states, about spyware. These insidious programs 
install themselves on computers without the users giving 
permission or even knowing about it.
    It's hard to use analogies with this, but it is sort of 
like somebody walking around your house invisibly. You think 
you can use your computer to read whatever you want to read, 
whatever you want to access, you access. But with spyware 
someone is out there gathering personal information--your 
passwords, your e-mail address--and sending it over the 
Internet to anyone they want, including maybe criminals. They 
can monitor the sites a computer user visits and send targeted 
pop-up ads, such as that described by my colleague, Senator 
Nelson. They can change a computer's home page setting, to that 
of the spyware's choice, or they can redirect a user's Internet 
browser to go to a different site than the consumer intended.
    In addition to privacy and security concerns, spyware and 
adware programs can cause computers to crash, disconnect from 
the Internet, and interfere with legitimate software programs. 
And, as Senator Nelson said, spyware companies target kids. One 
application called BonziBUDDY creates a purple ape that swings 
across the computer screen, telling jokes, singing songs, and 
delivering voice ads. Children often download such programs and 
the parents have no clue as to what they really do, and the 
children have no clue as to what the spyware does. The FTC 
successfully pursued Bonzi software for violating the 
Children's Online Privacy Protection Act, but that has not 
stopped companies from producing and distributing spyware.
    The point is, having a law to crack down on folks is good. 
I have no problem with it. But I think we have to do more than 
that, because clearly it's still going on even though there 
have been lawsuits filed. The problem has grown to epidemic 
levels, it's estimated that the market for ads delivered or 
generated by adware is currently worth $2 billion a year.
    Last October, America Online and the National Cyber 
Security Alliance examined the computers of 329 randomly 
selected Internet users, and found that 80 percent of them 
contained some form of spyware. The average infected computer 
had more than 90 spyware and adware programs. This trend must 
be stopped. It harms consumers, damages computers and 
undermines the privacy that people expect and deserve, and it 
goes after kids. And I think if anything unites us on this 
committee it should be that.
    Our bill simply says that all software makers, including 
spyware makers cannot sneak onto your computer. Specifically, 
the Spy Block Act prohibits the installation of any software 
without the notice and consent of an authorized user. 
Additionally, the software must provide clear procedures to 
uninstall the software, and must be capable of being completely 
and easily removed.
    Some people have objected to our bill, saying it should 
focus only on spyware and not on all software. The problem is 
that nobody thinks the software they produce is spyware. That 
is why our bill covers all software; otherwise the people who 
produce spyware will simply try to define themselves out of the 
category by claiming that their particular software is not 
spyware, and imagine a court case on that.
    Consumers deserve to be protected. Software should not 
track a person's activities and that of his or her family. 
That's Big Brother. That's Big Sister, and that's what we have 
to stop. And I would hope my colleagues on the other side who 
may not be for this bill will understand what we are talking 
about here. We are fighting for the individual over an 
organization that wants to spy on them. So, by applying common 
principles of consumer rights for all software, we deal with 
the spyware problem and enhanced consumer rights on the Net.
    Mr. Chairman, I hope we can get this bill done, and I look 
forward to working with you, Senator Nelson, and the others on 
the Committee. Thank you.
    Senator Burns. I thank Senator Boxer.
    We have been joined, among our very, very capable staff on 
both sides of the aisle by a new staffer this morning, and we 
would inquire whether the new staff member over there would 
like to make a statement at this time.
    Staff Member: No, thank you Mr. Chairman, but your 
graciousness is appreciated.
    Senator Burns. I would appreciate the status report.
    And we're also joined this morning by Senator Wyden, who is 
no longer a member of this committee, and was a very good 
member of it, and we worked on many issues, and of course we've 
worked on this one for a couple of years. We welcome him back 
this morning for a short statement. Welcome back, Senator 
Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman.
    First of all, I want to prove that contrary to everything 
that is said in the media, not every Senate speech has to be a 
filibuster, so I am going to be real short this morning and 
just give a couple of thoughts. A lot of you, I think, got the 
sense that I still wish I was on the other side of the desk 
with you.
    Senator Burns. You are welcome to join us at any time.
    Senator Wyden. That's a very kind offer, and I thank you 
very much for it. I think there are the makings just in the 
opening statements that I heard of a very good bipartisan 
agreement, between you and I, Mr. Chairman, Senator Nelson, 
Senator Boxer, and Senator Allen, who makes a lot of sense, 
too, in terms of talking about tough penalties. I think clearly 
there are all the makings for a very good bipartisan 
compromise.
    I would just say, the last time out the major effort made 
was with respect to spam, and this is a much more serious 
problem. With spam you can hit the delete button, but with this 
stuff it crashes your system. And, so people now don't know 
where it comes from, don't know how to wipe it out, and this 
is, I think, a much more serious problem and my colleagues 
essentially touched on that.
    I am particularly troubled about the fact that it really 
stems, as a spider web is created in our computer systems, from 
the fact that we've got to figure out how to protect people 
doing innocent work and innocent businesses, from those who 
cross the line. Much of the spyware and unwanted adware 
travels, essentially, as imposters via legitimate Internet 
advertising. What happens is companies enter into the 
advertising arrangements with legitimate Internet ad buyers, 
who then go out to advertising networks that can use thousands 
of affiliates, sometimes 70,000 affiliates, some of which are 
not legitimate. This array of affiliates are paid, in effect, 
by the click, and therefore have an incentive to rack up the 
largest number of clicks where the rogue software originates. I 
thought it was well described--and Senator Boxer's been a great 
advocate on these issues--by the Los Angeles Times just a few 
days ago, they said, ``if an affiliate slips a deceptive piece 
of software into somebody's personal computer and persuades the 
owner to buy something, the transaction can then be passed to 
three or four businesses, each of which take a cut before the 
affiliate network hands off the customer to the merchant.
    That is, in effect, how the cyber plague can grow 
exponentially and produce the figures that several of you 
touched on, and I was especially pleased that several 
colleagues essentially described the drive-by download, which 
also can be--in many instances--how this originates.
    I'd would start by just outlining six principles I think 
could be the basis of a bipartisan law bringing together my 
colleagues. First, let's make sure that consumers are in charge 
of their computers, not some company that they want no part of. 
And you can start by banning drive-by downloads.
    Second, when somebody jumps on their computer they should 
not be exposed to a Coney Island full of hucksters where they 
get tricked into installing software that they don't want, or 
where they can't identify the source of the ads. So, let's make 
sure the consumer is informed about who is providing the 
software. I think this touches on a point you and I made 
continually, Senator Burns, with respect to the spam debate. 
People in this country ought to have a First Amendment right to 
communicate, but they also ought to have a First Amendment 
right to tell folks to stop and a prerequisite to doing that is 
making sure they can identify the source of the ads.
    Third, it seems to me no software should allow any ad or 
information collected at one website to travel with the users 
to another website. You stop that and you get at this problem 
of the affiliates that I touched on.
    Fourth, consumers need to be able to remove or disable any 
software they don't want, so that when software is installed on 
a computer it should not be an irreversible act, and I think 
technologically that's a possibility.
    Fifth, to pick up on the point that Senator Allen made, we 
ought to come down on the offenders with hob nail boots, that 
means using the Federal Trade Commission, the states Attorney 
General--I know that Eliot Spitzer brought an action just a 
couple of days ago to indicate that the states want to be good 
partners in it, and I support Senator Allen in that effort.
    Finally, I would say that we ought to protect the companies 
that--in good faith--try to help consumers get rid of these 
cyber plagues, and they ought not be scared out of business 
simply because they are trying to do the right thing. You have 
to draw a clear line between legitimate advertising and what 
happens when the spider's web gets created through the 
affiliates, and the various approaches that end up junking our 
system full of all of this trash that really can crash the 
entire system.
    Mr. Chairman, you are kind to let me come, and if I had my 
way I would be up on the dais with all of you. I am just 
looking forward to working with you and based on the opening 
statements I think this is there for the doing.
    Senator Burns. Well, you are welcome to join us up here if 
you'd like, and stay for awhile.
    We are going to start the discussion this morning, and I 
think that's what we want to do. We've got several 
representatives, stakeholders in this issue, and so we will 
start with Trevor Hughes who is Executive Director of the 
Network Advertising Initiative. Mr. Hughes, we appreciate you 
coming today, and we look forward to your testimony. If you 
want to shorten your testimony up, your full statement will be 
made part of the record. And thank you for coming this morning.

  STATEMENT OF J. TREVOR HUGHES, EXECUTIVE DIRECTOR, NETWORK 
                     ADVERTISING INITIATIVE

    Mr. Hughes. Thank you, Senator Burns.
    Senator Burns, members of the Committee, good morning. My 
name is Trevor Hughes; I am the Executive Director of the 
Network Advertising Initiative.
    The NAI is a cooperative group of online companies 
dedicated to addressing public policy issues that occur at the 
intersection of issues of privacy and technology, and online 
marketing and advertising.
    In the past, the NAI has successfully launched self-
regulatory programs dealing with issues of online targeted 
advertising. We have also developed programs for the use of web 
beacons, we have been active in the e-mail and spam debates, 
and I have had the pleasure of testifying before this committee 
previously on issues of spam.
    Our members, over the past year and a half have turned our 
attention to the issue of spyware. What I would like to do this 
morning is present to you two dystopian visions of the future. 
And, these two dystopian visions of the future are directly 
related to our actions over the coming months.
    The first vision is that we allow spyware to continue to 
proliferate. And that would, in a sense, pollute the online 
world to such a degree as to make both e-commerce and the 
consumer experience online really not successful, and 
ultimately a failure. That is a bad result for all of us on 
this panel, for all companies involved in the online economy, 
and for most importantly, consumers. So, the first dystopian 
vision is spyware proliferates. And the members of my 
organization, and consumers, all suffer.
    But the second dystopian vision is similar to the statement 
from Senator Burns. And that is that our response to spyware is 
too extreme. That we throw the baby out with the bath water. 
And what I would like to offer today is the good work of the 
NAI and our pledge of support, to hopefully find a middle 
ground. I would like to suggest that it's my job, our members' 
job, and really the work of Congress to find a way between 
those two dystopian visions of the future, one in which spyware 
proliferates, and another in which the responses to spyware are 
so extreme as to limit the very thing that we're trying to 
protect. That we find that way to both protect the consumer 
experience, but also protect legitimate online enterprise.
    I think most importantly, spyware represents an erosion of 
consumer trust. This erosion of consumer trust in the wake of 
spyware is a serious problem for all companies in the online 
marketplace. Put simply, spyware threatens the economic 
foundations of E-commerce. And I think I could link arms with 
my fellow panelists today in making that statement.
    As a result, the NAI supports strong legislative and 
technological action against spyware. Our members cannot thrive 
in an environment where consumers do not or can not trust the 
businesses and websites that they encounter on web. However, 
our members have found that many of the spyware solutions that 
have emerged are creating troubling collateral damage. In other 
words, some of the solutions to spyware have harmed the very 
thing we are trying to protect. The power, the depth, and the 
free content of the Internet. Our responses to spyware must 
carefully balance our need to aggressively meet the threat, 
while protecting the continued legitimate use of the channel.
    For this reason, the members of the NAI strongly support 
Federal preemptive spyware legislation. We clearly need 
stronger legislative responses. Federal legislation that 
preempts State laws and creates a single, uniform national 
standard will both address the threat, and provide a clear set 
of standards for the online marketplace.
    But Federal spyware legislation must carefully balance 
these needs for aggressive responses against overbroad 
solutions. Under some of the bills that have been introduced, 
ubiquitous and important technological tools have been 
affected. Any legislation must be focused on the behavior 
associated with spyware, and that is fraud and deception. The 
malicious activities of purveyors of spyware must stop.
    But technology is simply the tool that they use to create 
the problem. It is not the problem itself. For that reason, the 
NAI is strongly supportive of legislation that is technology 
neutral. And let me make one thing very clear. In a way that is 
very similar to the spam debate from 2 years ago, if we create 
legislative responses that focus on technology, the purveyors 
of spyware will simply move to newer, more surreptitious, and 
different technologies, leaving the companies that are 
legitimately using those technologies to bear the yolk of the 
compliance and the regulatory standards that have been placed 
upon them.
    Other bills that we have seen introduced have gone far 
beyond the immediate concerns associated with fraudulent, 
deceptive spyware, and have proposed standards for online 
advertising that will be very harmful to the primary economic 
support for the vast quantities of free media online today. 
Make no mistake, the reason that Google can offer, perhaps, the 
most powerful search engine and research tool the world has 
ever seen, is because advertising supports their operation. The 
reason that Yahoo! and the New York Times, really every 
publisher in the world today, can offer free content online is 
because advertising supports those operations. Focusing in an 
excessive way on online advertising and spyware legislation 
calls into question, or may indeed threaten, some of those 
business models.
    We must also be wary of spyware legislation that 
inappropriately includes online privacy standards. I think it 
would confuse the issue to discuss spyware at the same time 
that we discuss online privacy. And again, the NAI is an 
organization that has been dedicated to finding standards that 
are appropriate, and meaningful at the intersection of the 
online world and privacy. So, we are prepared and in fact are 
very open to and encouraged by discussions of online privacy. 
But online privacy is a separate discussion from spyware, and 
we should handle them separately. Basically, the NAI feels that 
spyware legislation should focus carefully and precisely on 
fraudulent and deceptive practices.
    Let me speak for a moment on another topic, and that is 
technological solutions to spyware. These solutions are a 
promising option, in fact, they are needed, and the NAI 
supports calls for consumers to have anti-spyware programs on 
their desktops. However, some anti-spyware technologies are 
inappropriately alarming consumers by flagging, and in some 
cases deleting, legitimate technologies. In one case, cookies. 
Cookies are not spyware, and any technological solution must be 
carefully tailored to recognize, and leave intact, legitimate 
tools used by companies legitimately engaged in the online 
economy.
    The NAI feels strongly that solutions to spyware problems 
must be advanced. Federal preemptive legislation, aggressive 
enforcement of existing laws, accountable and transparent 
technological solutions and industry self-regulation can all 
work effectively toward eradicating fraudulent and deceptive 
practices of spyware.
    Mr. Chairman, the members of the NAI pledge our support in 
this fight. Spyware is a complex problem, and our solutions 
must be thoughtful, robust, and comprehensive. I thank you for 
your time today, and I will be happy to take any questions.
    [The prepared statement of Mr. Hughes follows:]

      Prepared Statement of J. Trevor Hughes, Executive Director, 
                     Network Advertising Initiative

    Mr. Chairman and members of the Committee, I want to thank you for 
inviting me to testify. My name is Trevor Hughes, and I am the 
Executive Director of the Network Advertising Initiative (NAI). The 
Network Advertising Initiative is a trade association representing 
companies concerned about issues of privacy, consumer protection, and 
online technologies. In this role, the NAI has taken a leadership 
position on issues of cookies, online advertising, spam, web beacons, 
the Platform for Privacy Preferences (P3P), and privacy legislation. 
The group has now turned its focus to the growing problem of spyware 
and the related concern of unintended consequences for legitimate 
technologies and business models.
    The extent of the spyware problem has been reported extensively in 
the media. In many ways, spyware has become one of the most compelling 
consumer issues in the e-commerce and online world. Spyware can cause 
serious problems, and even cripple computer systems. There is ample 
anecdotal evidence of spyware substantially impairing the speed of 
consumers' computers. The fraudulent and deceptive nature of spyware 
has resulted in legitimate consumer outcry. Businesses also struggle 
under the onslaught of spyware. Employees' systems can be seriously 
compromised by spyware. This raises serious concerns about 
productivity, security, and corporate intellectual property. Untold 
hours of customer service support are being spent in response to 
spyware problems on consumer and employee desktops.
    But the erosion of consumer trust in online activities and e-
commerce is perhaps the most economically damaging effect of spyware. 
Billions of dollars have been spent in realizing the promise of e-
commerce. Nearly every industry now uses online tools--including e-
mail, instant messaging, internet telephony, and e-commerce generally--
to transact business within companies and with customers. These 
investments are at peril if consumers distrust the very medium through 
which they are transacting business.
    There have been numerous surveys and polls taken to determine 
whether the threat of spyware and other deceptive practices has 
influenced consumer confidence with the Internet. In August 2004, 
Greenfield Online conducted a poll regarding Internet user's concerns 
and perceptions regarding Internet security issues. According to the 
results, 80% are concerned about online identity theft, 72% would bank 
online for the first time if security was improved, and 90% of existing 
online bankers would utilize higher value services if there was better 
protection from identity theft.\1\ In a September 2004 Dell and IEF 
poll, almost 4 of every 10 people polled felt less secure using 
computers than a year earlier.\2\ The results seem to show that 
consumers are becoming weary and wary.
---------------------------------------------------------------------------
    \1\ Survey Finds Identity Theft Negatively Impacting Consumer Use 
of the Internet, October 19, 2004, http://biz.yahoo.com/prnews/041019/
datu019_1.html
    \2\ IED-Dell Survey conducted between September 17-19, 2004 by 
Ipsos-Public Affairs. Results also mentioned in the Washington Post 
article ``Dell Joins Spyware Fight,'' October 18, 2004, http://
www.washingtonpost.com/wp-dyn/articles/A41629-2004Oct18.html
---------------------------------------------------------------------------
    When considered with the growing problems of phishing, ID theft, 
viruses, and general online fraud, the spyware problem exemplifies an 
increasing crisis in consumer confidence in the online channel. If 
spyware is allowed to proliferate, we will be left with a distinctly 
dystopian future in which the web is so polluted with fraud and 
deception as to be unusable by the public. In such a scenario, everyone 
loses.
    Industry and public policy solutions to the spyware problem have 
been quick to arise. Clearly, companies engaged in the online economy 
have a strong incentive to eradicate spyware. But any legislative and 
technological solutions must be carefully crafted to ensure that we do 
not throw the proverbial baby out with the bath-water. We must be sure 
to protect benign technologies and legitimate business models as we 
pursue the purveyors of spyware.
    We must also recognize the value of effective industry self 
regulation in the online economy. Legislative and technological 
responses frequently do not provide the fine tuning necessary to 
proscribe the boundaries of acceptable corporate practices online. 
There are many examples of strong self regulatory efforts in e-commerce 
that should be applauded and encouraged as a meaningful tool to address 
public policy concerns.

The Legislative Response
    Over the past two years, many legislative proposals have been 
introduced in response to the spyware problem. Currently, there are at 
least 3 bills in Congress, and over 30 bills in the states. Four states 
have passed spyware legislation. It is possible, if not probable, that 
we will have over a dozen spyware laws at the state level by the close 
of this year. As these laws proliferate, the challenges for legitimate 
businesses to comply with the myriad of state standards increase 
significantly.
    The members of the NAI feel strongly that Federal preemptive 
legislation is currently needed. We recognize, perhaps more than most 
other companies, the serious challenge presented by the growing 
gauntlet of state spyware laws. In the United States today, we have 4 
spyware laws on the books (one is currently enjoined under a 
constitutional challenge) and over 30 bills proposed. If the trend 
towards state spyware legislation continues, we will end up with a 
crazy quilt of standards that makes compliance overly burdensome for 
legitimate business. In such a scenario, preemptive Federal legislation 
is necessary to set a common platform for the Nation.
    But spyware legislation at the Federal level should not be passed 
only to create a common standard for the Nation. Rather, the primary 
focus of the legislation should be to address the dire threat posed by 
pernicious behavior online. Spyware is fundamentally an act of 
deception. And Federal spyware legislation should focus carefully on 
the fraudulent and deceptive behaviors associated with the problem. The 
NAI therefore strongly supports legislative efforts the target those 
acts associated with spyware that are fraudulent and deceptive in their 
very nature.
    But how do we know what is fraudulent online? In the Spring of 
2004, the Consumer Software Working Group (CSWG), a group formed under 
the leadership of Ari Schwartz from the Center for Democracy and 
Technology, recognized the growing concern over spyware and worked to 
compile a list of devious practices in downloaded applications 
(spyware). The CSWG categorized the practices into three areas, 
hijacking, surreptitious surveillance, and inhibiting termination. The 
CSWG list of devious practices is a valuable tool for identifying the 
fraudulent and deceptive practices that exist online. And the influence 
of the effort can be readily seen in Section 2 of H.R. 29, a leading 
spyware bill in the House of Representatives.
    The NAI participated in the development of the CSWG devious 
practices list and applauds Mr. Schwartz and the CDT for their 
leadership on this important issue. Our members feel that Section 2 of 
H.R. 29 represents an important tool for combating fraud and deception 
in spyware.
    Unfortunately, many of the legislative proposals currently under 
consideration go far beyond fraud and deception. Indeed, H.R. 29, while 
providing meaningful responses in Section 2 (dealing with deceptive 
practices) goes too far by proscribing many online advertising 
practices. The NAI does not support legislative standards that endeavor 
to place limits on the use of online advertising. Online advertising is 
the primary economic force that creates the enormous amount of free 
content we enjoy online today. Proscribing online advertising will 
compromise that economic model, and may threaten the availability of 
free resources online.
    Further, many legislative proposals confuse the spyware debate with 
online privacy. While there are definitely privacy violations that are 
occurring through spyware, a broad online privacy response that covers 
all online activities is not warranted. Online privacy should be 
considered separately from spyware.
    Another approach that has been seen in response to spyware is to 
limit the technologies that the purveyors use to perpetrate their 
fraud. But this response is flawed. Spyware is not caused by 
technology. Indeed, in many cases the technology is irrelevant to the 
practice involved. If legislation were to limit a certain technology, 
the purveyors of spyware would simply move to, or develop, other 
technologies to continue their activities. Prohibiting or proscribing 
technologies is not good public policy.
    A good example of a technology that has been implicated in the 
spyware debate is cookies. Put simply, a cookie is a mechanism that 
allows a website to recognize a particular computer as it visits that 
site. Cookies power a huge number of critical web functions today--
preference management, shopping baskets, advertising, auditing and 
analytics all use cookies.
    There have been privacy concerns related to the use of cookies, and 
these issues are valid and important. As a result, cookies have been 
thoroughly vetted through public policy channels. Cookies are not 
spyware. They have been thoroughly reviewed and managed through 
technology, regulation, and self regulation. Any further standards 
create very real threats to the reinvigorated online economy. E-
commerce, online advertising, and free online content all pivot upon 
the use of cookies. Any legislation addressing spyware must make it 
clear that cookies are not spyware. A legislative approach that focuses 
on behavior (fraud and deception) and not technology will achieve this 
result.
    Another issue that has arisen in the legislative debate over 
spyware is whether companies engaged in the technological responses to 
spyware (anti-spyware technologies) should be provided protections 
under the law. The members of the NAI feel strongly that all companies 
in the online world should be accountable for their actions. Providing 
a ``good Samaritan'' safe harbor for anti-spyware companies would 
remove the necessary checks and balances that encourage such companies 
to provide solutions that are carefully targeted at actual spyware. We 
therefore do not support such provisions.

Conclusion
    The NAI feels strongly that spyware is a critical threat to e-
commerce and online advertising. We applaud and support legislative 
efforts that are narrowly tailored to offer better tools to pursue 
fraud and deception. We stand together with advocates, consumers, and 
public policy leaders in demanding accountability for the nefarious 
actions of the purveyors of spyware.
    However, much of the current discussion regarding spyware has 
inappropriately included limits on online advertising, privacy 
standards, and benign technologies such as cookies. Limits on online 
advertising and broad online privacy mandates are inappropriate in a 
spyware bill. And technological proscriptions may hinder the use of 
fundamental tools of e-commerce. Any restrictions on these technologies 
could have devastating consequences for the online economy.
    The NAI therefore urges public policymakers to carefully draft any 
spyware standards to narrowly focus on fraud and deception. Legislation 
should be inherently technology-neutral and not impair the continued 
growth of the online advertising market.
    But legislative solutions are not enough to solve the spyware 
problem. We need to have effective, and accountable, technologies to 
respond to the pollution on consumers' desktops. And industry self 
regulation must be supported to provide strong guidance for the 
legitimate actors in the online economy.
    Mr. Chairman, on behalf of the members of the NAI, I pledge our 
efforts to continue to work on this issue and to support the important 
work of this committee in fighting spyware. Spyware is a complex 
problem, and our responses must be thoughtful, robust and 
comprehensive.
    Thank you. I look forward to your questions.

    Senator Burns. Thank you very much. Now we have David Moll, 
who is Chief Executive Officer, Webroot Software, 
Incorporation, and thanks for coming this morning.

 STATEMENT OF C. DAVID MOLL, CHIEF EXECUTIVE OFFICER, WEBROOT 
                         SOFTWARE, INC.

    Mr. Moll. Thank you, Senator Burns, and members of the 
Committee.
    Senator Burns. Pull the mike up. You've got a nice voice; 
we should have everybody hear it.
    Mr. Moll. Thank you, sir, I'm flattered.
    Thank you for inviting me here today. My name is David 
Moll, and I am the CEO of Webroot Software in Boulder, 
Colorado. Webroot is a privately held company backed by some of 
the industry's leading venture capital firms, including 
Technology Crossover Ventures, Axel Partner, and Mayfield. I 
would like to ask that my complete written testimony be 
included in the record, and I will summarize for you here, the 
key points.
    Founded in 1997, Webroot has created innovative privacy 
protection and performance solutions used by millions of 
computers users around the world. Our customers include Fortune 
500 companies, Internet service providers, government agencies, 
higher education institutions, small businesses, and 
individuals. We are most well-known as the creators of a 
leading anti-spyware product, Spy Sweeper, released in 2003.
    At the high level there are four primary ways that spyware 
represents a threat to us today: data security; online privacy; 
networking computer performance; and more broadly, Internet 
commerce. Data security is a key element. Whereas a primary 
risk of computer viruses has always been data corruption, 
spyware poses a very real threat to data security itself. Some 
of the most at-risk data today includes: national security 
information, including defense and homeland security; 
intellectual property and trade secrets; financial records; 
customer data; personal health information; and a wealth of 
other sensitive data such as passwords and account numbers. 
Instances where these risks have been realized are, in fact, 
numerous today and include shocking realities.
    Hill Air Force Base in Utah, part of the Strategic Air 
Command, has identified and removed a substantial spyware 
infection, including keystroke loggers. The Oklahoma City, 
Kentucky Sheriff's office identified three PCs, seemingly a 
small example. However, each of these PCs had access to 
homeland security updates, prisoner transfer records and 
personnel files. Val Software, Incorporated, 3 years ago was 
penetrated by spyware and source code for their leading product 
that was then posted on the Internet, nearly crippling the 
company. A leading mutual fund company with more than 2,000 
employees recently identified 8,000 high-risk pieces of spyware 
on their network in only 1 month of administering an anti-
spyware solution. And finally, the payroll systems of the Bay 
City, Michigan school systems were found riddled with spyware, 
again, including keystroke loggers. These are just a few 
examples of a widespread problem that threatens data security 
across our country.
    As it relates to online privacy, the privacy threat of 
spyware in this cyber age is the equivalent to trespassing in 
your home, much the way Senator Boxer suggested. Some of the 
types of information that can be collected by spyware programs 
without the informed consent of the computer owner, are your 
browsing habits, the sites you've visited, search terms you've 
used, advertisements you clicked on, bookmarks or favorites 
that you've entered, contents you've downloaded, applications 
that you've used, entire e-mail or instant messaging 
conversations, user names, passwords, and certainly personal 
information such as social security numbers and credit card 
numbers.
    During the first quarter of this year, one of our Nation's 
largest financial services companies determined that 100 
percent of the fraud penetrated through their online banking 
portal was achieved through the use of spyware. As it relates 
to network and computer performance, at a minimum, it is a 
nuisance to have your computing resources used by programs you 
didn't knowingly install. Studies during the last year show 
that spyware consumes an inordinate amount of computing 
resource, and as spyware multiplies on a PC, the impact 
increases in a super linear fashion. With as few as three or 
four pieces of spyware on a single PC, and mind you, that the 
AOL study found as many as 90--the machine can become 
unusable--with its memory dominated by spyware processes, the 
hard drive used to cache advertisements, and the connection 
jammed with spyware/server communications. Not surprisingly, 
this leads to a larger economic impact in terms of the number 
of support calls caused by spyware--predominantly with Internet 
service providers and computer makers. Dell Computer 
determined--and this goes back to the 2003-2004 testimony that 
they gave to the FTC--one in five of the calls made to their 
consumer support line is driven by a spyware-related problem. 
This figure stands today. A leading global IT services firm has 
determined that spyware-related support calls to their internal 
help-desk makes up 70 percent of their support requests, 
costing that organization millions.
    Finally, spyware poses a threat to Internet commerce 
itself. The increasing complexity and security concerns that 
arise from spyware, and the new uses of spyware in phishing and 
pharming attacks, have created a new level of user concern that 
threatens trust in the online economy. The threat has proven so 
dramatic that Citigroup recently entered into a partnership 
with Webroot to provide anti-spyware protection for their card 
holders and employees in defense of their customers and the 
folks who work for them. Based on recent Webroot research, 
there are more than 250,000 websites that leverage and exploit 
a security hole which allows spyware to contaminate a user's 
computer with no interaction from the user--a practice known as 
the drive-by download. Often this is affected from websites 
that leverage misspelled URLs, and including a recent example 
where Google.com suffered this very effect. This experience 
shakes the confidence of users, and deters e-commerce itself.
    As shocking as some of the examples of spyware's victims 
may be, the pervasiveness is even more shocking. Webroot's 
survey of more than one million PCs last quarter, reveals that 
88 percent of home computers, 64 percent if we exclude tracking 
cookies, and 87 percent of business computers, 55 percent 
without cookies, are infected with some form of spyware. I'll 
point to you the sample size here of more than a million PCs 
relative to that AOL study. We have a great deal of additional 
data about spyware that we have assembled in the Webroot State 
of Spyware report. I would like to ask that a copy of this 
report be included, along with my testimony, in the hearing 
record and, members of the Committee, I think you've already 
received both hard and soft copies of this report. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Senator Burns. We have, and we will put that in the record.
    Mr. Moll. With the limited time that I have left, I'd like 
to move on to how we fight spyware. Individuals in the industry 
have been able to combat viruses successfully. Perpetrated by 
individuals, the defenses have been organized and well-funded. 
But, for the first time, we now fight an organized and well-
funded threat. Spyware is part of a calculated business plan, 
or it's a tool that is used by criminals. In both cases, there 
are clear economic motives behind the proliferation of spyware. 
We believe that the advertising-inspired revenues here alone 
are in excess of $2 billion dollars annually, and the 
fraudulent side is rising as well. In order to effectively 
fight this problem, we need technical solutions, clear public 
policy and strong legal enforcement. In addition to existing 
law, which provides for complaints by the FTC and the attorneys 
general, we also anticipate benefits from legislation such as 
Senator Burns' bill. The bill provides additional clarity and 
focus on the problems that we are seeing, and we hope that it 
will induce additional attention from law enforcement agencies. 
Again, I thank you for inviting me here today, and I appreciate 
the opportunity to come and share with you some of what we have 
learned over the last few years. And, I welcome any questions.
    [The prepared statement of Mr. Moll follows:]

     Prepared Statement of C. David Moll, Chief Executive Officer, 
                         Webroot Software, Inc.

    Chairman Stevens, Senator Inouye, and Committee members, thank you 
for inviting me to speak to you today. My name is David Moll and I am 
CEO of Webroot Software, headquartered in Boulder, Colorado. Webroot is 
a privately held company that is backed by some of the industry's 
leading venture capital firms, including Technology Crossover Ventures, 
Accel Partners and Mayfield.
    Founded in 1997, Webroot has created innovative privacy, protection 
and performance solutions used by millions of computer users around the 
world. Our customers include Fortune 500 companies, Internet service 
providers, government agencies, higher education institutions, small 
businesses and individuals.
    In 2002, our research team, which consisted of just two people, saw 
a growing pattern of undisclosed downloads that caused numerous 
problems for computer users. We joined a small band of early activists 
that began calling these kinds of programs spyware. We introduced a 
product called Spy Sweeper in February of 2003 to help our customers 
fight this newly identified problem. When first introduced, Spy Sweeper 
found around 200 various programs, and easily removed them all.
    We have been running at breakneck speed to stay a step ahead of 
spyware ever since. Today, we are a company of 250 professionals 
focused on combating this problem. Our research team has grown to over 
30 people, a good number of whom develop and maintain the automated 
tools we use to outpace the developments in spyware. Spy Sweeper, has 
also changed to adopt new weaponry to combat spyware that is 
increasingly hard to identify, and at times even harder to remove. This 
week we will introduce Spy Sweeper 4.0, our latest edition, with more 
than one-half million lines of software code. This our 14th major 
release of the product in a little more than two years.
The Effects of Spyware
    Spyware and its ability to access a user's machine without informed 
consent for financial gain is an epidemic that threatens the viability 
of the Internet as a commerce, entertainment, communications and 
educational tool. Spyware programs can be used to facilitate the 
unauthorized use of computers for things like spam relay, and 
distributed denial of service attacks. Spyware programs can also lead 
to identity theft, and the theft of intellectual property, as well as 
data leaks, and the degradation of computer performance. Spyware is 
difficult to detect, and even more difficult (if not impossible) for 
the average user to completely remove manually.
    At a high level, there are four primary ways that spyware presents 
a threat: data security; online privacy; network and computer 
performance; and Internet commerce broadly.
    Data Security--Whereas a primary risk of computer viruses is data 
corruption, spyware poses very real threats to data security. Some of 
the most at risk data includes:

  <bullet> national security including defense and homeland security;

  <bullet> intellectual property and trade secrets;

  <bullet> financial records;

  <bullet> customer data;

  <bullet> personal health information; and,

  <bullet> other sensitive data such as passwords and account numbers.

    Working with government entities and corporate customers over the 
past year, we have witnessed breaches involving each of these sensitive 
kinds of data. There are cases where spyware was used to infiltrate 
local law enforcement computers, trading and financial systems at 
financial institutions, payroll systems at Fortune 500 corporations, 
central databases for school systems, and entire municipal computer 
operations.
    In these kinds of environments, even a very small number of system 
monitors or keyloggers puts highly-sensitive information at risk.
    Privacy--When placed on a machine without the informed consent of 
the computer owner, spyware is the cyber-age equivalent of someone 
trespassing into your home. Some of the types of information collected 
by spyware programs without the knowledge of the computer owner are:

  <bullet> browsing habits and sites visited;

  <bullet> search terms used;

  <bullet> advertisements clicked on;

  <bullet> bookmarks and favorites;

  <bullet> downloaded content;

  <bullet> applications used;

  <bullet> e-mail and instant message conversations;

  <bullet> usernames and passwords; and

  <bullet> personal information, such as social security numbers.

    While few argue about the sanctity of personally identifiable 
information, we often hear the argument that collecting aggregated 
browser habits to provide more targeted advertising is not a privacy 
invasion. We disagree. In our view, it is wrong to download programs or 
data files without the informed consent of the computer owner for 
marketing purposes. Such marketing behavior begins the slippery slope 
of reasoning that leads to more egregious privacy violations by 
malicious spyware. Think about this in the offline environment. Would 
it be ok for a marketing firm to go into your home without your 
knowledge to look at the books on your shelves to decide what to market 
to you? Would it be ok if they did it to everyone and aggregated the 
data?
    Computer and Network Performance--Spyware can seriously impact 
computer and network performance. At a minimum, it is an undesirable 
nuisance to have your computing resources used by programs you didn't 
install, and do not want. There is also a larger economic impact in 
terms of the number of support center calls caused by spyware. 
According to Dell Computer, one of every five customer support calls 
are related to spyware, adversely affecting the profitability of their 
consumer business.
    In corporate environments, where many computers are centrally 
supported and managed, spyware can drive up the total cost of ownership 
in the IT system; a leading IT services firm estimates that spyware 
costs them millions annually in productivity and support costs, and 
constitutes as much as 70 percent of their internal help desk call 
volume.
    In the worst cases, systems can crash from an overload of spyware 
programs, resulting in the loss of data and computer assets. This part 
of the spyware threat is too often overlooked or underestimated, yet 
productivity costs associated with spyware are far greater than spam.
    Internet commerce--At a macro level, spyware also presents a threat 
to Internet commerce as a whole. The increasing complexity and security 
concerns that arise from spyware, and the new uses of spyware, such as 
phishing and pharming attacks, have created a new level of user 
concern.
    Based on our recent research, there are more than 250,000 webpages 
that leverage a weakness we call an ``exploit'' which allows them to 
contaminate a user's computer with some form of spyware even when there 
is no interaction from the user--a practice known as a drive-by 
download. Quite often these sites hosting drive-by downloads operate 
using URLs that are commonly misspelled or mistyped alternatives to the 
URLs of popular sites. For example, just last week, Internet users 
planning to visit Google's site who inadvertently mistyped and entered 
www.googkle.com became the unwitting victims of drive-by downloads.
    In the consumer world, spyware represents the same potential for 
fraud that internal spyware infections represent to corporations. For 
example a leading financial institution working with Webroot determined 
than 100 percent of the e-commerce fraud experienced by the bank in the 
past quarter was tied to spyware on end user machines. Spyware, 
keystroke loggers in particular, that can be installed from drive-by 
sites or via e-mails, have become new methods to those harvesting 
identities and defrauding consumers via the Internet.
    As more people become aware of these numbers and understand the 
threat of spyware, we are concerned about an overall negative effect on 
consumer trust in the online economy.

The Growth of Spyware
    Spyware has become pervasive. Webroot's survey of more than one 
million PCs in the last quarter reveals that 88 percent of home 
computers (64 percent if we exclude tracking cookies) and 87 percent of 
business computers (55 percent if we exclude tracking cookies) are 
infected with some form of spyware. The good news is that awareness is 
increasing, and more people are installing programs, like Webroot's Spy 
Sweeper, to prevent and contain spyware from impacting their system. 
The bad news is that the spyware purveyors are financially motivated, 
creative and resourceful. Therefore, we face a constant escalation in 
the amount of spyware we have to fight.
    To give you an idea about the growth rate of spyware, Webroot 
identifies between 50 and 100 new pieces of spyware every week, and 
between 200 to 500 pieces of spyware that have ``morphed'' to avoid 
detection and removal. With the help of a spyware research system we 
call Phileas, which I will explain further later, Spy Sweeper currently 
detects about 88,000 spyware traces--individual files which make up a 
piece of spyware.
    Understanding the growth of spyware requires more than just data 
about infection rates. It also requires that we understand the impetus 
behind propagating these programs. Spyware is not like a virus designed 
by a ``script kiddie'' who just wants to show off. Spyware is part of a 
calculated business plan, or a tool used by criminals. In both 
instances there are clear economic motives behind the proliferation of 
spyware.
    In order to effectively fight this problem, it is essential that we 
have a clear picture of economic drivers, infection rates and trends. 
Recognizing this need, Webroot began work earlier this year to create a 
report that would encapsulate all of the key aspects of the issue. The 
result is the Webroot State of Spyware report which we issued this past 
week. This is a broad and detailed accounting of spyware today. We 
continue to compile this data, and we will issue updates to our report 
quarterly.
    To ensure that you have all the information we assembled, I'd like 
to ask that a copy of the report be included in the hearing record as 
an appendix to my testimony.

Fighting Spyware
    Until recently, the primary methods for fighting spyware were 
reactive. Anti-spyware companies concentrated on fixing an already 
infected machine. That alone presents a significant challenge, because 
in order for us to do our job correctly, we need to not only detect and 
quarantine the spyware programs, but we also need to ensure that we do 
not interfere with any legitimate files in the process.
    Once we mastered the techniques to accomplish these two things, we 
worked to figure out a method that would not only cure spyware 
infections but also prevent them. Last year, we launched the Webroot 
Phileas Malware Crawler that I referenced earlier. Phileas is the anti-
spyware industry's first automated spyware research system. Phileas 
deploys hundreds of automated programs--called bots--to crawl the Web 
searching for spyware. In less than an hour, a single Phileas bot 
completes the equivalent of 10 days of manual research by a trained 
person. With the speed and scale of the Phileas system, we travel the 
Internet every day to find spyware before it attacks our customers. We 
complement systems like Phileas with ``shields'' built into the Spy 
Sweeper software which protect users' systems from the common behaviors 
of spyware, stopping the threat before it can take hold of a system.
    Ultimately, we believe that it is best to fight technology with 
technology, and we remain committed to continuing to provide the very 
best commercially available technology solutions to fighting spyware. 
However, we also believe that there is a vital role for legislators, 
regulatory agencies and law enforcement to play in this fight.
    As I stated earlier, there are economic motivations behind the 
growth of spyware. Some of the companies involved in the proliferation 
are considered legitimate U.S. based companies. The complaint filed by 
the FTC against Seismic, and the NY Attorney General's case against 
Intermix, demonstrate that there are cases that can be pursued under 
current law in U.S. Courts. We encourage enforcement agencies and 
attorneys general to deploy additional resources to join the fight 
against spyware. Companies need to understand that there will be costs 
associated with operating in ways that deceive and defraud consumers.
    In addition to existing law, we at Webroot also anticipate benefits 
from legislation such as Senator Burns' bill, S. 687. The bill provides 
additional clarity and focus to the problems we are seeing, and I hope 
it will induce additional attention from enforcement agencies.

Conclusion
    Again I thank you for inviting me here today. Spyware is something 
we have spent innumerable hours on over the last two years, and I 
appreciate the opportunity to come and share with you some of what we 
have learned. I welcome any questions you have for me.
    I would also like to offer our assistance to all the members of the 
Committee. If, after today's hearing, any of you have additional 
questions we can answer or need information we can provide, please do 
not hesitate to contact us. Based on our attention to this problem, and 
our unique research capability, we are in a unique position to offer 
assistance, and welcome the opportunity to help in the formation of 
policy.

    Senator Burns. Thank you very much, Mr. Moll, and we have 
Ari Schwartz, he is Associate Director, Center for Democracy 
and Technology, and thank you for coming today, we work a lot 
with that group, and we appreciate you and are looking forward 
to your testimony.

   STATEMENT OF ARI SCHWARTZ, ASSOCIATE DIRECTOR, CENTER FOR 
                 DEMOCRACY AND TECHNOLOGY (CDT)

    Mr. Schwartz. Thank you, Senator Burns. members of the 
Committee, thank you for holding this hearing on spyware and 
inviting the Center for Democracy and Technology to testify 
today.
    Since CDT last testified in front of this committee in the 
last Congress, spyware practices have gotten much worse. On a 
personal note, following this holiday season, I can count 
myself among the tens of thousands of technically astute 
consumers and computer professionals who have tried to help a 
family member fix their computer that has been plagued by 
spyware. This computer was so clogged that we decided it would 
be better just too simply reformat the hard drive.
    On the brighter side, we have seen law enforcement start to 
take action against alleged spyware purveyors. Recently, the 
Attorney General of New York brought a case against a Los 
Angeles company called Intermix for deceptive and unfair 
practices in installing software. And in a case that received 
much less attention in October of last year, the FTC began its 
first public enforcement against a spyware company, a case 
against Seismic Entertainment. The FTC's lawsuit was based on a 
complaint filed earlier by CDT. In that complaint, we 
specifically asked the FTC to investigate the affiliate 
relationships being exploited by companies to deflect 
responsibility and avoid accountability. The FTC has pursued 
financial records and e-mails in that case, and their 
investigation has now given us a clear picture of how current 
advertising practices on the web can go astray and lead to the 
installation of spyware.
    There is little question that many consumers like the idea 
of free content in exchange for seeing advertisements, as long 
as it is their choice. But today we see too many cases of long 
affiliate chains where, at the end, companies are paying shady 
operators on a per installation basis. This pay per install 
model creates an incentive to cram extra software onto 
computers without regard to the wishes of the user.
    The FTC's discovery in the Seismic case shows through e-
mails that Seismic worked with various players to take 
advantage of the current system. CDT has tried to follow the 
resulting trail. In our testimony, we have a graphic detailing 
what we know about this case to help serve as an example. We 
provided the Senators with a one page blow up copy of this 
graphic. If you are confused by this trail, you are not alone. 
The complex mess of advertisers, adware companies, ad networks, 
distributors, affiliates and websites is enough to make even a 
seasoned analyst's head spin.
    To clarify a little, Seismic would use fake public service 
announcements to infect the computer through a hole in the 
browser. In one e-mail message, the head of Seismic proudly 
proclaimed, ``I figured out a way to install an executable file 
without any user interaction. This is the time to make the 
money while we can.''
    Later, he explained to one of his partners that they worked 
on weekends because it takes longer for the ad networks to shut 
them down. The e-mails also show a pattern that they would go 
back to the same ad networks time and time again. Adware 
networks should have caught onto this, but unfortunately based 
on the e-mail available, only a couple seemed to care about 
this clear pattern of abuse.
    Once Seismic had gained a foothold in the user's computer 
through the infected banner, it would install the dozens of 
programs, including those from large companies, like 180 
Solutions. 180 Solutions software then delivered popups onto 
the user's computer. As the LA Times detailed in a piece at the 
beginning of this week that Senator Wyden also mentioned, many 
of the mainstream companies have no idea that their ads are 
showing up on 180 Solutions software, let alone through 
nefarious installations like this one.
    CDT sees four major areas where action is necessary to 
combat spyware, and stem the disturbing trend toward a loss of 
control and transparency for Internet users. First, enforcement 
of existing law. Second, better consumer education, and 
industry self-regulation. Third, improved anti-spyware 
technologies, and fourth, baseline Internet privacy 
legislation. Carefully targeted spyware-specific legislation 
may also have a role to play, especially as it relates to 
improved enforcement, and building incentives for positive 
action.
    However, we hope that such legislation is not seen as an 
alternative for baseline standards for online privacy. The 
absence of privacy rules has created a kind of ``wild west'' 
atmosphere that we've seen in too many cases. Privacy 
legislation can put in place a framework for addressing issues 
like spyware before they've reached epidemic proportions, 
rather than only legislating reactively.
    CDT believes that we can address this problem, but it will 
take a sustained commitment from technology companies, the 
advertising community, and law enforcement, to stem these bad 
practices. I look forward to your questions.
    [The prepared statement of Mr. Schwartz follows:]

        Prepared Statement of Ari Schwartz, Associate Director, 
               Center for Democracy and Technology (CDT)

    Chairman Stevens and Ranking Member Inouye, thank you for holding 
this hearing on spyware, an issue of serious concern for consumers and 
businesses alike. CDT is honored to have the opportunity to speak with 
you today about spyware and the businesses behind it.
    CDT is a non-profit, public interest organization devoted to 
promoting privacy, civil liberties, and democratic values online. CDT 
has been widely recognized as a leader in the policy debate surrounding 
so-called ``spyware'' applications.\1\ We have been engaged in the 
legislative, regulatory, and self-regulatory efforts to deal with the 
spyware problem, and have been active in public education efforts 
through the press and our own grassroots network.
---------------------------------------------------------------------------
    \1\ See, e.g., CDT's ``Campaign Against Spyware,'' http://
www.cdt.org/action/spyware/action (calling on users to report their 
problems with spyware to CDT; since November 2003, CDT has received 
hundreds of responses). Center for Democracy & Technology, Complaint 
and Request for Investigation, Injunction, and Other Relief, in the 
Matter of MailWiper, Inc., and Seismic Entertainment Productions, Inc., 
Feb. 11, 2004, available at http://www.cdt.org/privacy/20040210cdt.pdf 
[hereinafter CDT Complaint Against MailWiper and Seismic]. Eye Spyware, 
Christian Science Monitor Editorial, Apr. 21, 2004 (``Some computer-
focused organizations, like the Center for Democracy and Technology, 
are working to increase public awareness of spyware and its risks.''). 
The Spies in Your Computer, N.Y. Times Editorial, Feb. 18, 2004 
(arguing that ``Congress will miss the point [in spyware legislation] 
if it regulates specific varieties of spyware, only to watch the 
programs mutate into forms that evade narrowly tailored law. A better 
solution, as proposed recently by the Center for Democracy and 
Technology, is to develop privacy standards that protect computer users 
from all programs that covertly collect information that rightfully 
belongs to the user.''). John Borland, Spyware and its discontents, 
CNET.com, Feb. 12, 2004 (``In the past few months, Ari Schwartz and the 
Washington, D.C.-based Center for Democracy and Technology have leapt 
into the front ranks of the Net's spyware-fighters.'').
---------------------------------------------------------------------------
    As an organization dedicated both to protecting consumer privacy 
and to preserving openness and innovation online, CDT has sought to 
promote responses to the spyware epidemic that provide meaningful 
protection for users while avoiding overly burdensome regulation of 
online commerce, software development, and business models. Last year 
we testified before the Subcommittee on Communications on the issue of 
spyware, attempting to define the problem and suggest the range of 
responses required to address it. Since that time, we have worked 
closely with members of industry, other consumer advocates, 
legislators, and others in government to more fully understand and 
begin to address this complex and important issue. We look forward to 
continuing this effort with members of the Committee and others in 
Congress and elsewhere.

        ``I figured out a way to install an exe without any user 
        interaction. This is the time to make the $$$ while we can.'' 
        \2\
---------------------------------------------------------------------------
    \2\ Federal Trade Comm'n. Mem. in Support of Leave to Name 
Additional Def.'s. and File First Am. Compl., Att. A, Federal Trade 
Comm'n v. Seismic Entertainment Productions, Inc., et al, 04-377 (D. 
N.H.) [hereinafter FTC Mem.]

    These two sentences, the body of an e-mail uncovered by the FTC in 
its recent case against a network of spyware purveyors, provide a rare 
window into the heart of the spyware problem. The alarming spread of 
deceptive download practices and stealthy, nefarious applications is a 
major threat to Internet users and to the long-term health of the open 
and decentralized Internet. It is a threat that exists because of the 
massive quantities of money to be made propagating these applications. 
Sanford Wallace, the spyware purveyor who wrote the lines above, 
brought in at least $1.5 million from browser hijacking and deceptive 
software downloads in 2003 and 2004.\3\
---------------------------------------------------------------------------
    \3\ The FTC found that Wallace received nearly $700,000 from 
OptInTrade and over $900,000 from Mail Wiper, Inc. and Spy Deleter, 
Inc. (FTC Mem. at 7, 10).
---------------------------------------------------------------------------
    As a whole, spyware and its close cousin adware are a multimillion 
dollar industry.\4\ Deceptive and often clearly illegal software 
download practices are a regular part of the business of many American 
companies operating in online commerce. These practices are funded and 
incentivized through poorly policed download commission programs, 
programs that, in turn, are funded by large, mainstream advertisers. 
The entire process is sustained through a nearly impenetrable web of 
affiliate relationships that is used to deflect accountability and 
frustrate law enforcement. Many of the companies involved, particularly 
the advertisers, have no idea what is going on.\5\
---------------------------------------------------------------------------
    \4\ One recent article cites estimates between $500 milliion and $2 
billion. We believe these estimates are based on research by Esther 
Dyson and Webroot, respectively. See Joseph Menn, Big Firms' Ad Bucks 
Also Fund Spyware, L.A. Times, May 9, 2005.
    \5\ See Menn, Big Firms' Ad Bucks Also Fund Spyware.
---------------------------------------------------------------------------
    CDT sees four major areas where action is necessary to combat 
spyware and stem the disturbing trend toward a loss of control and 
transparency for Internet users: (1) enforcement of existing law; (2) 
better consumer education and industry self-regulation; (3) improved 
anti-spyware technologies; and (4) baseline Internet privacy 
legislation.
    Carefully targeted, spyware specific legislation may also have a 
role to play. However, we hope that such legislation is not seen as an 
alternative for baseline standards for online privacy, now that many 
companies have expressed their support for such a goal. Privacy 
legislation would provide businesses with guidance about their 
responsibilities as they deploy new technologies and business models 
that involve the collection of information. It would put in place a 
framework for addressing issues like spyware before they reach epidemic 
proportions, rather than legislating reactively. Finally, privacy 
assurances in law would give consumers some measure of confidence that 
their privacy is protected as companies roll out new ventures.
    If we do not begin to think about privacy issues more 
comprehensively, the same players will be back in front of this 
committee in a matter of months to address the next threat to online 
privacy and user control. We hope that we can address these issue up 
front, rather than waiting for each new privacy threat to present 
itself.

1. What is Spyware?
    No precise definition of spyware exists. The term has been applied 
to software ranging from ``keystroke loggers'' that capture every key 
typed on a particular computer; to advertising applications that track 
users' web browsing; to programs that hijack users' system settings. 
Much attention has been focused on the surveillance dimension of the 
spyware issue, though the problem is in fact much broader than that.\6\
---------------------------------------------------------------------------
    \6\ Some argue that the term ``spyware'' should be used exclusively 
for software that records and transmits consumer information, whereas 
the broader category of nefarious applications that we use the term to 
describe should instead be called ``malware.'' Regardless, the problem 
consumers face is the same: a flood of unwanted applications, some of 
which collect information and some of which exhibit other objectionable 
behaviors.
---------------------------------------------------------------------------
    What the growing array of invasive programs known as ``spyware'' 
have in common is a lack of transparency and an absence of respect for 
users' ability to control their own computers and Internet connections.
    In this regard, these programs may be better thought of as 
trespassware. Among the host of objectionable behaviors for which such 
nefarious applications can be responsible, are:

  <bullet> ``browser hijacking'' and other covert manipulation of 
        users' settings;

  <bullet> surreptitious installation, including through security 
        holes;

  <bullet> actively avoiding uninstallation, automatic reinstallation, 
        and otherwise frustrating users' attempts to remove the 
        programs;

  <bullet> substantially decreasing system performance and speed, in 
        some cases sufficient to render systems unusable; and

  <bullet> opening security backdoors on users' computers that could be 
        used to compromise their computers or the wider network.

    Each of these behaviors was specifically documented by CDT or 
reported to us by individual users frustrated by their inability to use 
their own systems. Although no single behavior of this kind defines 
``spyware,'' together these practices characterize the transparency and 
control problems common to applications that warrant the ``spyware'' 
moniker.

2. The Spyware Business: Theory and Practice
    While it is exceptionally difficult to obtain precise data on the 
prevalence of the spyware problem, the best study done to date, 
conducted by AOL and the Nation CyberSecurity Alliance, found that 80% 
of broadband and dial-up users had adware or spyware programs running 
on their computers.\7\ Based on consumer complaints we have received 
\8\ and our own research, CDT believes that the prevalence of egregious 
spyware and clearly unlawful violations has increased dramatically. Of 
particular concern is the use of security holes in web browsers to 
silently force software onto users' computers. Many Internet users may 
simply be turning off the Internet in response to these threats.\9\
---------------------------------------------------------------------------
    \7\ http://www.staysafeonline.info/news/safety_study_v04.pdf
    \8\ When CDT first became involved in the spyware issue, we 
launched a ``Campaign Against Spyware,'' calling on Internet users to 
send us their experiences with these invasive applications, as 
mentioned in footnote 1 above. We indicated that we would investigate 
the complaints received and, where we believed appropriate, file 
complaints with the FTC. In our appearance before the Communications 
Subcommittee, we testified regarding the dramatic response to our 
campaign. In the nine months since our last appearance, CDT has 
continued to receive complaints through our online submission form. 
Among what are now hundreds of complaints, a total which continues to 
grow daily, are regular reports of new spyware programs arising. See 
http://www.cdt.org/action/spyware
    \9\ See, e.g. Joseph Menn, No More Internet for Them, L.A. Times, 
Jan., 14, 2005, at A1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    At the heart of this problem is the affiliate-marketing business 
model by which many advertising applications (adware) are spread. We 
want to take the opportunity in our testimony today to highlight and 
explain this issue, which has not been given sufficient attention to 
date.
    Adware companies have a superficially simple business model: they 
provide a means of support for free software programs similar to the 
way that commercials support free television. Advertisers pay adware 
companies a fee to have their advertisements included in the adware 
program's rotation. The adware company then passes on a portion of that 
fee to distributors in exchange for bundling the adware program with 
other free software--such as gaming programs, screen savers, or peer-
to-peer applications. Finally, the consumer downloads the bundle, 
agreeing to receive the advertising served by the adware program in 
exchange for the free software.
    In fact, this simple description of how distribution of adware and 
other bundled software takes place is often a radical 
oversimplification. Many adware companies and other software bundlers 
operate through much more complex networks of affiliate arrangements, 
which dilute accountability, frustrate law enforcement efforts, and 
make it nearly impossible for consumers to understand what is going on.
    The diagram below presents some of the actors and relationships in 
the online advertising world as it operates in reality. These include:

  <bullet> product and service vendors, who have contracts with adware 
        vendors and advertising brokers to distribute ads for their 
        offerings;

  <bullet> adware companies, who have multi-tier affiliate arrangements 
        with other adware companies, software producers, website 
        owners, and advertising brokers;

  <bullet> software makers and website owners, who enter into bundling 
        and distribution agreements with adware companies and 
        advertising brokers, as well as with other software makers and 
        website owners; and

  <bullet> advertising brokers, who serve as middlemen in the full 
        array of affiliate arrangements.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    The consequence of ubiquitous affiliate arrangements is that when 
an advertisement ends up on a user's computer, it will be many steps 
removed from the advertiser who paid for it. Similarly, the 
installation of the adware that is causing the ad may have been 
performed by a company that is far down the chain from the company that 
actually programmed the software. The existence of this complex network 
of intermediaries exacerbates the spyware problem in several ways. For 
example:

  <bullet> Industry Responsibility--Adware companies, advertising 
        brokers, and others all often disclaim responsibility for 
        deceptive spyware practices, while encouraging these behaviors 
        through their affiliate schemes and doing little to police the 
        networks of affiliates acting on their behalf. Advertisers, 
        too, should be pushed to take greater responsibility for the 
        companies they advertise with.\10\
---------------------------------------------------------------------------
    \10\ Examples of steps in this direction include public policies by 
Dell, Major League Baseball, and Verizon setting standards for what 
software companies they will advertise with. Similarly, Google has 
drafted a specific public policy on what other applications it will 
bundle its utilities with. See http://www.google.com/corporate/
software_principles.html.

  <bullet> Enforcement--Complex webs of affiliate relationships 
        obstruct law enforcement efforts to find the parties 
        responsible for spyware outbreaks. The complexity of these 
        cases puts an extreme strain on enforcement agencies, which 
---------------------------------------------------------------------------
        struggle to tackle the problem with limited resources.

  <bullet> Consumer Notice--Adware companies and their affiliates have 
        been reluctant to clearly disclose their relationships in a way 
        that is transparent to consumers. CDT has suggested specific 
        ways that adware companies could improve branding of their ads 
        to help consumers understand bundling arrangements.\11\ For the 
        most part, companies have resisted these changes.\12\ Efforts 
        to bring transparency to the full chain of affiliate and 
        distribution arrangements have met with even greater 
        opposition.
---------------------------------------------------------------------------
    \11\ Center for Democracy & Technology, Comments to FTC Workshop on 
File-Sharing Workshop, Nov. 15, 2004.
    \12\ WhenU, one of the large adware companies, recently introduced 
co-branding for some ads. WhenU is currently the only adware company to 
co-brand.

    For these reasons, the affiliate issue has become a central aspect 
of the spyware epidemic. Finding ways to effectively reform affiliate 
relationships will remove a linchpin of spyware purveyors' operations.

3. A Real World Example of the Spyware Business
    In October of last year, the FTC began the first public enforcement 
action against purveyors of spyware, a case against Sanford Wallace and 
his New Hampshire company Seismic Entertainment.\13\ The FTC's lawsuit 
was based on a complaint filed earlier by CDT. In that complaint, we 
specifically asked the Commission to investigate the affiliate 
relationships between the parties involved. We highlighted the problem 
of affiliate relationship being ``exploited by companies to deflect 
responsibility and avoid accountability.'' \14\ The FTC pursued 
financial records and e-mails in the case, and its investigation has 
now given us a clear picture of how the adware business model can go 
very wrong.
---------------------------------------------------------------------------
    \13\ Federal Trade Comm'n v. Seismic Entertainment Productions, 
Inc., et al, 04-377 (D. N.H.)
    \14\ CDT Complaint Against MailWiper and Seismic at 2.
---------------------------------------------------------------------------
    The facts in the Seismic case, from the consumer's perspective, 
were as follows: An Internet user browsing the web would go to any of a 
variety of online sports, gaming, or other sites that carried banner 
advertising. The user would see an innocuous seeming banner 
advertisement, often a public service ad. Unbeknownst to him, however, 
the banner contained code that would launch pop-ups and change his 
homepage. The pop-ups and homepage hijacking were triggered when the 
banner was loaded, whether or not the user clicked on it. The next time 
the user opened his browser, he would be directed to a full page 
advertisement for anti-spyware software. This offer to remove unwanted 
programs and pop-ups (for $30) would appear even as adware programs 
were being silently installed on the user's computer. These programs 
would cause a barrage of pop-ups whenever the user surfed the web, they 
would add a toolbar and new ``favorites'' to his browser, and they 
would deposit icons on his desktop. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    CDT traced the nefarious banner ads that triggered this whole chain 
of events back to Seismic Entertainment. Based on CDT's research and 
the FTC's discovery, we now have a partial picture of what was 
happening behind the scenes in the case. Our current understanding of 
the network of affiliate arrangements is illustrated above--a map that 
would be confusing even to many of the companies in it.

A. Placing the Spyware-Spreading Ads
    Once Seismic developed code to change users homepages and 
stealthily install programs, the company had to find a way to place 
this code in websites viewed by large numbers of Internet users. To do 
this, Seismic incorporated the code into innocuous seeming banner ads, 
often public interest ads as described above. Seismic would then pay 
large advertising brokers to incorporate the ads into their rotations. 
In the cases we know of, this was accomplished through a bait and 
switch: the ad brokers would be shown one set of normal, uninfected 
ads. Then at the last minute (and often over the weekend in order to 
make detection more difficult) the benign ad would be switched with one 
that looked superficially identical, but contained the infectious 
spyware code. In this way, the infected ads would appear on sites that 
had agreements with the ad network, whether sports sites, gaming sites, 
or other popular online destinations that used ad revenue to support 
their services.
    Often Seismic would use a ``front man'' to further obfuscate the 
situation. We know that soon after Seismic figured out how to silently 
install applications, the company contacted a prospective partner, 
OptInTrade:

        From: <MasterWebFanClub@aol.com>
        To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4923283b2c2d0926393d20273d3b282d2c672a2624">[email&#160;protected]</a>
        Date: Sat, Mar-6-2004 4:51 PM
        Subject: I DID IT

        I figured out a way to install an exe without any user 
        interaction. This is the time to make the $$$ while we can.

    Seismic and OptInTrade agreed that OptInTrade would deal with the 
advertising networks. When the networks discovered that the benign 
advertisements they had approved had been replaced by malicious 
versions, OptInTrade would feign ignorance and lay the blame on its 
upstream affiliate. In exchange for playing this role, OptInTrade would 
receive a portion of Seismic's revenues from the scheme. One exchange 
between Seismic and OptInTrade, laying out this strategy, was uncovered 
by the FTC:

        From: <MasterWebFanClub@aol.com>
        To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4ded5c6d1d0f4dbc4c0dddac0c6d5d0d19ad7dbd9">[email&#160;protected]</a>
        Date: Fri, Nov-28-2003 12:37 PM
        Subject: strategy

        I do my sneaky shit with adv.com today through Sunday--
        everyone's off anyway. . . . You then send an e-mail to your 
        contact early Monday AM saying the advertiser was unethical and 
        pulled a switch and you are no longer doing business with them. 
        . . . Then we stop buying adv.com through you in any way.

    We know from other e-mails that this strategy was in fact carried 
out. One ad network, a company called CyDoor, complained to OptInTrade 
about the spyware infected ads that it had placed:

        From: Bob Regular [mailto:<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3e333e1c3f253833332e723f3331">[email&#160;protected]</a>]
        Sent: Sunday, December 21, 2003 12:45 PM
        To: ``Jared Lansky''
        Subject: Please Terminate OptinTrade Online Pharmacy--Violated 
        Agreementt

        [ . . . ] traffic just informed me your launching pops from 
        your banners that force change in you homepage and stall your 
        computer [ . . . ] I simply do not understand how this could 
        happen again.

    In response, OptInTrade told CyDoor that the ads were ``from a new 
advertiser'' and that they had ``no idea how this is happening:''

        From: Jared Lansky [mailto:<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7ddd6c5d2d3f7d8c7c3ded9c3c5d6d3d299d4d8da">[email&#160;protected]</a>]
        Sent: Sunday, December 21, 2003 9:25 PM
        To: Bob Regular
        Subject: RE: Please Terminate OptinTrade Online Pharmacy--
        Violated Agreement

        Hi Bob--The pharmacy campaign was a new advertiser with a new 
        code set. When tested it didn't launch pops or change my 
        homepage so I approved it to run with you. I have no idea how 
        this is happening [ . . . ]

    In fact, OptInTrade knew exactly what was going on.

B. Sources of Funding: Adware Companies and Advertisers
    Seismic's infected banners made the company a surprising amount of 
money. Seismic's revenues came largely from per-install commissions 
paid by the adware companies. These companies pay a set amount every 
time one of their affiliates installs their program. Seismic would 
install the adware applications through its stealth process, and then 
collect the commissions--hundreds of thousands of dollars worth, based 
on documents uncovered by the FTC.
    We know from records uncovered by the FTC and from CDT's own 
research that the long list of companies involved in the distribution 
chain for the adware applications installed by Seismic included 
LoudMarketing,\15\ Integrated Search Technologies, ClearSearch, Mindset 
Interactive, and 180 Solutions. We do not yet know the exact nature of 
these companies' involvement or their level of knowledge about the 
scheme.
---------------------------------------------------------------------------
    \15\ LoudMarketing, a Canadian company also known as LoudCash, CDT 
Inc. (no relation to the Center for Democracy and Technology), and a 
host of other names, was recently purchased by 180 Solutions.
---------------------------------------------------------------------------
    We do know, however, that in at least one case, the support for the 
adware came originally from major online companies. 180 Solutions is 
paid by large travel sites, online merchants, and others to serve 
advertisements for their services.\16\ In this case, a portion of those 
revenues were passed on to a 180 Solutions distributor, Mindset 
Interactive. That company, either directly or through other affiliates, 
paid Seismic for installations--installations that Seismic would get 
through its devious infected banner ads.
---------------------------------------------------------------------------
    \16\ The two examples used in our chart, J.P. Morgan Chase and 
Disney, are taken from Menn, Big Firms' Ad Bucks Also Fund Spyware. We 
do not know conclusively (and it would be nearly impossible to 
determine) whether these two companies were advertising with 180 
Solutions during the precise time that 180 Solutions' products were 
being covertly installed through Seismic. Rather, they are intended to 
serve primarily as examples of the many large, mainstream companies 
that advertise through adware.
---------------------------------------------------------------------------
    In this way, large legitimate companies came to fund clearly 
illegal spyware distribution practices. Because of the lengthy and 
complex chain of affiliates involved, they almost certainly did so 
unintentionally and unknowingly.

4. Combating Spyware
    Combating spyware--and the affiliate problems behind it--requires a 
combination of aggressive law enforcement, private efforts, and 
legislation. Significant progress has already been made since the 
spyware issue first began to receive national attention over a year 
ago, but much ground still remains.

A. Law enforcement
    Much spyware is currently covered by Section 5 of the FTC Act, 
banning unfair and deceptive trade practices, as well as by the 
Computer Fraud and Abuse Act or the Electronic Communications Privacy 
Act. Spyware purveyors are also likely violating a variety of state 
statutes.
    The FTC's case against Seismic et al., described in detail above, 
represents an admirable first step in the enforcement effort. We 
applaud the Commission for its work on the case, which has led to an 
injunction against further exploitative practices by Seismic, and the 
extensive discovery regarding Seismic's affiliates that we have 
described. We hope and expect that the Commission will continue to 
pursue the web of affiliates in this case and to add defendants as 
appropriate.
    In addition, the Attorney General of New York recently brought a 
case against an L.A.-based company, Intermix Media, alleging that the 
company had installed a wide range of advertising software on home 
computers without giving consumers proper notice.\17\ CDT applauds the 
Attorney General's action, as state enforcement is badly needed in this 
area to supplement Federal cases.
---------------------------------------------------------------------------
    \17\ See http://www.oag.state.ny.us/press/2005/apr/apr28a_05.html.
---------------------------------------------------------------------------
    Indeed, both the FTC and other national and state level law 
enforcement agencies must actively pursue further cases. Both the 
number and frequency of cases must be dramatically increased if law 
enforcement is to provide a significant deterrent to purveyors of 
spyware and to serve as a wake-up call to the many upstream companies 
that are currently partnering with and funding these bad actors.

B. Self Regulation and Consumer Education
    Consumer education and sound best practices for downloadable 
software are sorely needed. Consumer protection bodies have a crucial 
role to play in educating consumers.
    In addition, CDT has been contacting advertisers that are the root 
source of funding for spyware. We are encouraging advertisers to take a 
hard look at their policies and affiliate agreements. Companies should 
be actively creating and endorsing quality control policies for 
advertising delivery, and they should refuse to partner with adware 
companies until those companies clean up their acts, ensuring that all 
the users who get their ads have consented to receive them.

C. Anti-Spyware Technologies
    Spyware blocking and removal tools, and other innovative forms of 
anti-spyware technology, are a crucial component of consumers' spyware 
protection.
    In order to help advance anti-spyware technology, CDT convened a 
meeting in March with industry leaders and others to discuss issues 
facing the anti-spyware industry, including those that impact the 
industry's ability to ensure user control and empowerment. The 
participants shared their commitment to ensuring that users maintain 
control over what is on their computers. The participants also agreed 
to work together to better educate consumers about available tools and 
to develop shared terminology and approaches. Participants included: 
Aluria; AOL; Computer Associates; EarthLink; HP; Lavasoft; McAfee Inc.; 
Microsoft; Safer-Networking Ltd.; Symantec; Trend Micro; Webroot 
Software; Yahoo! Inc.; Samuelson Law, Technology & Public Policy Clinic 
at Boalt Hall School of Law, UC Berkeley; Business Software Alliance; 
and the Cyber Security Industry Alliance.
    The group plans to meet again and will invite other consumer groups 
to join the effort as the members create public working drafts that 
address the group's chief goal of helping users and organizations take 
back control of their computers.

D. Legislation
    CDT has been supportive of legislative efforts against spyware, yet 
we also want to make clear that there is only so much that new 
legislation can do. We endorse the idea of calling specific attention 
to the worst types of deceptive software practices online as most of 
the spyware bills do. Enforcement will be crucial to any legislative 
effort. Therefore, we are strongly supportive of including powers for 
state attorneys general. In addition, any legislation must take care to 
ensure that the use of complex affiliate relationships, as outlined 
above, will not enable responsible parties to avoid liability.
    Senator Conrad Burns (R-MT), Senator Barbara Boxer (D-CA) and 
Senator Ron Wyden (D-OR), should be commended for their leadership to 
accomplish these goals through the new version of the SPYBLOCK Act 
(S.687). It marks a substantial step forward in addressing many of the 
concerns of consumer groups and companies.
    CDT also remains firmly committed to the idea that a long-term 
solution to spyware and other similar issues requires baseline online 
privacy legislation. Many of the issues raised by spyware may be easier 
to deal with in this context. This approach will also help us head off 
similar epidemics in the future, rather than reacting to them 
legislatively only after the fact.
    Indeed, CDT hopes that the current effort on spyware can provide a 
jumping off point for efforts to craft baseline standards for online 
privacy now that many companies have expressed their support for such a 
goal. Otherwise, we will simply be back in this same place when we 
confront the next privacy-invasive technology.

5. Conclusion
    Users should have control over what programs are installed on their 
computers and over how their Internet connections are used. They should 
be able to rely on a predictable web-browsing experience and the 
ability to determine what programs are on their computer and to keep 
out those they do not want. The widespread proliferation of invasive 
software applications takes away this control.
    Addressing the spyware problem at its root requires understanding 
and responding to the problem of affiliate marketing. Industry self-
policing and aggressive law enforcement by Federal and State 
authorities can help combat this phenomenon. Continued consumer 
education, and improved anti-spyware tools are also key to giving 
consumers control back over their online experiences. New laws, if 
carefully crafted, may also have a role to play.
    The potential of the Internet will be substantially harmed if the 
current spyware epidemic continues. We look forward to continued work 
with this Committee to find creative ways to address this problem 
through law, technology, public education and industry initiatives.

    Senator Burns. Thank you very much, Mr. Schwartz. I will 
start the questioning here, and I will start with you because 
you mentioned this thing of the need of more privacy 
legislation. Are you saying that we should go back and 
reexamine the old Privacy Act and make some changes now because 
technology has changed?
    Mr. Schwartz. Yes, that's exactly what I'm saying. We need 
to take a look; you know we've had issues of cookies come 
before this committee, 6 or 7 years ago. Spam has come up again 
and again; we've had this discussion, as Senator Nelson said, 
with the data brokers and some of those issues as they reach 
online. We have the issue of RFID chips, and all of these come 
up again and again, and we don't have the basic framework 
online to deal with these issues and how they relate to the 
Internet. And that causes us to have to go and reexamine these 
problems every time, reexamine notice, reexamine consent, 
reexamine choices.
    Some companies are beginning to come around to the idea 
that today, they're beginning to come around to the idea that 
privacy legislation could actually help in the future if it's 
done right. And it's going to be hard to do it right, and we 
see that, and we're not necessarily saying that it should be 
done only to go after spyware. We think it should be a bigger 
discussion, but we need to reinvigorate that debate again.
    Senator Burns. Mr. Moll, how would you react to that 
because you are in that business, and it seems to me there's a 
very fine line here that makes policymakers, and especially 
when you set anything into law, are we going to have to change 
as technology changes, but how do we deal with that?
    Mr. Moll. I think there are some principles that are 
timeless, and I point back to the Fair Information Practice 
principles that the FTC rolled out in the 1990s as still being, 
in fact, timeless and highly relevant. I do think that as 
technology continues to morph, (and I'll point out that today 
we are talking about PCs, we are not talking about PDAs and 
cell phones, and spyware and privacy threats will ultimately 
govern those devices as well), there needs to be a constant 
vigilance around how this is going to apply to new 
technologies.
    Senator Burns. Mr. Hughes, advertising is very, very 
important to all of us. That's what maintains our free over-
the-air television and radio and it also provides the engine 
that allows us to be on many of our Internet services for a 
very, very low cost. In your testimony you are saying move with 
caution. Have you provided this committee, and I know we have 
been working with you a little bit on this, that's a fine line 
also.
    Mr. Hughes. It's mostly definitely a fine line. But 
actually, I would say that we should not move with caution, we 
should actually move with purpose and actually move 
aggressively. We have had the opportunity to review Senator 
Allen's proposal, we think that it has many of the components 
that we feel are important and right.
    What we have seen in the spam debate is that strong 
enforcement has an incredible deterrent effect in the market 
place. I frequently say that we will solve the spam problem and 
I think we'll solve the spyware problem when we see more 
purveyors of this fraud and deception coming out of Federal 
courthouses with raincoats over their heads, being led away. I 
think that that deterrent effect is absolutely necessary.
    So legislation that focuses on fraud and deception provides 
preemptive standards so that we have a national level, a 
national platform for legitimate business to comply with and 
work from, and strong enforcement tools, I think would be 
something that we need immediately.
    Senator Burns. Can we stay ahead of it?
    Mr. Hughes. I think we are too far behind it right now to 
get ahead of it. I can foresee a future, sort of between those 
two dystopian visions that I described in which we do have 
control over it, and let me again refer back to the spam 
debate. Two years ago many were ready to throw their hands in 
the air and say that e-mail was a lost cause. That the channel 
of e-mail had indeed become so polluted. And, in fact, 
legitimate businesses were seeing e-mail filtering for spam 
filtering, some of the Bazian filters, content word filters, 
flagging messages that were entirely innocent, in fact, 
legitimate, and in some cases, absolutely necessary that the 
recipient received them. We were in a bad state, but we got a 
great combination of the CAN-SPAM Act, strong technological 
responses including e-mail authentication which is moving 
forward aggressively now, and AOL recently had given us some 
very good news, that we may be turning the corner in the spam 
fight. So, I most definitely can foresee a future when we turn 
the corner on the spyware fight.
    Senator Burns. Government can do some, we as policymakers 
can pass a law, but I think it takes, and you tell me if I'm 
wrong, it takes all the industries that all three of you 
represent, working together because there's no way we can be 
agile enough--the only thing we can set up is the framework--
but I think most of the responsibility falls on you folks who 
represent the different ends of industry.
    Mr. Hughes. Senator, if I could, we actually scheduled our 
meeting first, but tomorrow we have almost two hundred members 
of this industry, including Mr. Schwartz and representatives 
from Mr. Moll's company, meeting in New York City to do exactly 
that. To move the discussion in the dialogue forward. So I am 
looking forward to hosting 200 of our colleagues who care 
desperately about this issue tomorrow in New York City.
    Senator Burns. You should have met in Billings, Montana, 
but other than that, that's fine. Mr. Allen?
    Senator Allen. Thank you, Mr. Chairman. I will ask all the 
witnesses here these questions. Do you all believe that the FTC 
currently has the authority to bring action against those who 
are purveying these deceptive and fraudulent means of 
surreptitiously downloading software on consumers' computers? 
Do you all think they have the authority?
    Mr. Schwartz. Yes, they have the authority and they have 
tools to do it. We're concerned about, as you said, some of the 
disgorgement issues and some of the--being able to go down the 
chain a little bit further--and whether they have the resources 
to bring those cases.
    Senator Allen. Do you all agree?
    Mr. Moll. Senator, I would add one element, and that is 
that the Internet, and the notion of click-through licenses 
create new elements that I don't think were embodied in many of 
the laws, both at the State and Federal level that govern fair 
advertising. So in as much as they may have authority, I think 
there may be questions of application.
    Senator Allen. Let me understand that again?
    Mr. Moll. Well, I think that there are elements today 
contained in end user license agreements that suggest that the 
user has given permission to install software that plays ads. 
And I think that the notion of that click-through license is at 
the heart of some of the adware debate that will be part of the 
spyware debate we are going to have to facilitate here.
    Senator Allen. Would that not be a fraudulent and deceptive 
practice?
    Mr. Moll. That, I think, is up for question, and my belief 
is absolutely. I think there are others who disagree.
    Senator Allen. Mr. Hughes?
    Mr. Hughes. Senator, I would concur, I think the FTC Act 
provides great tools for the FTC to go after the purveyors of 
spyware. There are a couple of components that I think would be 
helpful, disgorgement, clearly, but also preemption. We work in 
a medium, the web that is fundamentally borderless, and for a 
legitimate business to try and draw lines around state 
boundaries and comply with differing state standards is a real 
challenge. I think the web really lends itself to a 
jurisdiction of the highest level and therefore we are 
supportive of Federal preemptive legislation.
    Senator Allen. I call it a national standard, and the 
reason is that we do have a number of states acting, and you 
can understand why states are acting, but this is a national--
it's indeed an international problem. And the approach I think 
we are taking, my bill as well as Senator Burns' bill, 
different than the house version is that we do allow, 
obviously, the FTC and Federal authorities to prosecute these 
criminal activities. In the event that the states' attorneys 
general want to be involved, they also can, and both of us have 
that whereas the House version does not.
    The impetus, all of you all agree that there's Federal 
jurisdiction, Federal authority. Do you agree that the main 
problem, problems, are one, they don't have the resources to 
investigate and prosecute--and so in our measure, the measure 
that Senator Smith and Ensign and I have introduced adds $10 
million in funding, the disgorgement aspects of getting after 
ill-gotten gains. Ultimately, I think one way to fund it is to 
treat them somewhat similar to what I have done in the past 
with drug dealers, if they have ill-gotten gains off those 
assets, the jewelry, art object, yachts, cars, and give it to 
law enforcement for them to make undercover drug buys, pay 
informants, and so forth. It's like catching a shark and 
cutting it up for bait to catch more sharks, as opposed to the 
taxpayers. Those are the main approaches, as well, I think, the 
need for those in the industry to find ways to educate the 
public, consumers at home or in businesses how there are 
technologies to block spyware, just as was done with spam more 
recently.
    Do you think that adding $10 million to their enforcement 
efforts, as well as discouragement would have that salutary 
effect of deterring, as well as, do you all agree that there 
ought to be a national standard here, as opposed to--I see them 
all nodding yes for the record for this court reporter, do any 
of you disagree?
    Mr. Schwartz. Senator, can I?
    Senator Allen. Yes.
    Mr. Schwartz. One issue that you just raised there about 
some of the funding issues, I think it's important to realize 
that you can look at that chart that we put together of the 
Seismic case, and mapping that case out takes a lot of 
resources just to get to the point of finding the chain and 
tracking down the chain. They need the kind of forensic 
resources at the FTC and at the state level, actually, to be 
able to go after these bad guys all the way down the chain. 
That's something we don't really have today. In the Seismic 
case, we were able to spend our own money and work with others 
on the net to try and do the forensic work that put out the 
basic outline of the chain, so that we could turn it over to 
the FTC, and then they could pick it up from there.
    The Intermix Case is a more direct case than we usually 
see, the one that Attorney General Spitzer's bringing, so we're 
talking, to get really to the root of the problem it's going to 
take more resources and kind of new skills to some of these law 
enforcement agencies that they perhaps don't have today.
    Senator Allen. That's good advice. I'm not sure if $10 
million dollars is all that it takes, but it's a substantial 
amount of money. It's not as if this is an easy effort that 
people instinctively know how to investigate.
    Let me finish in the last minute here. On the issue of a 
national standard would you all agree in the need for 
preemption that if we don't have that, you could have 50 
different state standards for this, as well as the global 
marketplace and actually, then have such a confusing situation, 
it would actually harm the ability of us to prosecute 
nationally and internationally?
    Mr. Moll. Senator, if I may, I think you've hit on a very 
good point there. And to the point that we want to defend the 
advertising industry that is legitimate, I think that is the 
most key element right now. With the current trajectory of 
state laws that vary in their application and definition as 
widely as they do (and I'll point out, there are 27 states that 
have a bill either passed, or somewhere in process) this 
becomes untenable for people to thwart the problem, as we do in 
the anti-spyware industry and for people in the advertising 
business, for advertisers themselves.
    Further, I think that on the international level, the EU is 
currently in consideration of legislation which will obviously 
provide for some consistency there. So I think that we'd be in 
good stead to follow suit and have a national standard.
    Senator Allen. That's good to know, I will be holding a 
hearing this afternoon, Mr. Chairman, EU, European Commission 
and U.S. technology issues, and this would be a good one. Let 
me point out our measure that we have introduced has the 
toughest penalties than any state has. I wanted to make it so 
we are not somehow having lower penalties. We have tougher 
penalties than any other state as well as allowing treble 
penalties, and damages as well.
    Senator Burns. Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman. If we don't put an 
end to spyware, spam, and identity theft, people are going to 
be gun shy about using their computer. I couldn't help but 
think of a thorny issue that we have coming before us by the 
end of this year which is the reenactment of U.S.A. Patriot 
Act. And one of the excesses that is considered there is that 
the government may go in, without a court order, and get your 
library records to see what kind of books you have been 
reading. If we don't do something about this, someone can 
invade our personal computers and find out what we have been 
reading. So, it's the same kind of thing of invasion of 
personal privacy which is so important under this 
constitutional form of government, and under the Bill of 
Rights.
    Now, I can tell you that my constituents are telling me, 
Mr. Hughes, that the spam problem is not solved. To the 
contrary, we better put an end to spam, and we better put an 
end to spyware. It's not only the problem that we don't have 
enough teeth in the anti-spam law, but that the perpetrator 
just moves offshore. So, as we address this issue of spyware we 
have to address the same thing. Put some teeth in the law so 
that they can come out with jackets over their head and be an 
example, but that's not going to happen if they all move 
offshore just like so much of the spam has, as well. So we are 
going to have to do something that has U.S. Government 
partnering with other countries to get our arms around this 
situation.
    So let me ask you Mr. Moll, in your testimony you mentioned 
that spyware poses the threats to data security, which in turn, 
can harm our national security, elaborate on that a little bit.
    Mr. Moll. Certainly, Senator. We define spyware as 
inclusive of several sub-categories. Two of the more alarming 
include keystroke loggers and Trojans.
    Key stroke loggers are simply software applications which 
have the ability to capture every key stroke you type at the 
keyboard. Products like this were recently used in an 
international example that, I think, highlights how effective 
they can be. Sumitomo Mitsui Bank's London offices were 
actually alleviated of $430 million in a situation where 
keystroke loggers were used to steal passwords, user names, and 
account numbers. And, this is a situation that I think is 
highly relevant as it relates to national security. I already 
mentioned Hill Air Force Base. We have several Air Force, Navy, 
and Army installations that use our products to defend against 
this very kind of threat--installation of a key stroke logger 
on a system which has access to critical security information.
    I would point out further that the existence of firewalls, 
intrusion prevention capabilities, and anti-virus capabilities 
today is not sufficient to defend against this kind of threat, 
and as a result, we effectively have offered low-hanging fruit 
and access to these kinds of systems through things like key 
stroke loggers.
    The example that I offered about the Oklahoma City 
Sheriff's office in Kentucky, I think is a good one because the 
software in question that was used and found to be on those 
machines is a commercially available product for $99.00, you 
can purchase this product. If you purchase the upgrade you can 
actually create your own installer, which would allow you to 
say, create a document that you could send by e-mail, and if 
somebody viewed the document, it would silently install the 
software on that PC. That kind of capability, I think, is a 
great threat to our security.
    Mr. Schwartz. Let me say, what Mr. Moll says is illegal 
today under the Computer Fraud and Abuse Act. A protected 
computer under the Computer Fraud and Abuse Act includes a 
computer that holds national security information within the 
Government. Under any standard. The Department of Justice could 
be bringing these cases today. We have not seen them enforced 
in that way.
    Senator Burns. Mr. Schwartz, what would you like in a 
comprehensive approach to this, since we're talking about 
national security? Are we talking about electronic commerce, 
are we talking about consumer privacy?
    Mr. Schwartz. As I said in my testimony, we think that the 
privacy issue--I agree with what Mr. Hughes said--that the 
privacy issue is a separate issue. We need to deal with the 
general online privacy debate and get at some of these issues 
before they happen. We need to have that issue in a separate 
discussion. That said, there are things that we can do today, 
and enforcement of existing law is a key to it, I think, 
improving some of the standards that we have, seeing a better 
framework that pushes for improved enforcement and building 
incentives for positive action, are really the key points, 
going after behaviors instead of specific technologies is a key 
point here. Those are things that we can do in spyware-specific 
legislation, but we need to have other issues debated, we need 
to have oversight of some of these law enforcement agencies, 
and seeing what they're doing today, let's have a discussion 
with them about how they're using their resources and what we 
can do to help them use their resources and help them bring 
some of these cases to light, as Mr. Hughes said.
    Senator Burns. What about consumer education?
    Mr. Schwartz. Consumer education is an important piece of 
this. The problem is the debate changes very quickly. This is 
somewhere where anti-spyware technologies are extremely 
important, and we need to start doing a better job of educating 
consumers about security and including anti-spyware 
technologies in that discussion. We are working with the anti-
spyware technology companies to try and build a discussion so 
that we can talk to consumers in a cohesive way with some of 
the anti-spyware companies and with some of the consumer 
groups. We are just at the beginning of that discussion, but we 
hope to have a product by the end of the summer.
    Mr. Moll. Senator, if I may add one comment to that. I fear 
there is a sense that there's a silver bullet out there. We 
don't believe that the silver bullet is legislation. We don't 
believe it's enforcement, and we don't believe it's 
technology--particularly as it relates to things like new 
operating systems or new browser capabilities. Only this last 
week, some of what we considered to be the better browsers, and 
the more defensible operating systems have proven to be 
compromised by the likes of spyware.
    What we believe is that a layered approach is important. 
That education, legislation, enforcement and technology need to 
work in concert, and I believe there's a good example now that, 
frankly is close to 20 years old in the antivirus marketplace. 
This reflects where laws have been in place, and where 
education to this point has been effective. You know, the 
market is fully penetrated by antivirus products, and that 
market in concert with these activities have worked well 
together to thwart what was once a damning problem, to make it 
now effectively neutralized. I think that's a good template for 
us to consider as we deal with this problem as well.
    Senator Burns. If the Senator would yield, I would like to 
add a footnote on that. When you come to awareness and public 
education on this problem, I would have to get a hold of some 
of Mr. Hughes' folks because it's going to take a pretty good 
word mechanic to get all the awareness and using terms that are 
completely strange and foreign to the majority of people, even 
us who use computers, into a 30 second spot, so to speak. But, 
nonetheless, I think some people with some cartoon ability and 
creativity can do that, and I know the National Ad Council 
would take a look at that, because it becomes, it's a very 
serious thing and public awareness is going to be key on this 
thing. We know that.
    Senator Snowe, thank you for joining us this morning. We 
wrote you down as tardy.
    [Laughter.]
    Senator Snowe. Thank you, Mr. Chairman, thank you. Well, 
let's just say I'm not alone in that regard.
    [Laughter.]

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman, for holding this 
hearing today. I do appreciate it, and also for your leadership 
that you have given consistently over time on this issue and on 
the anti-spam legislation a few years ago.
    I want to welcome the panelists, and Mr. Hughes, I know 
you're from York, Maine, beautiful. It's great to have you 
here. What is it? Spyware is a very insidious practice. You 
know, it's obviously something that's going to have to be 
addressed through Federal legislation in some form. Obviously 
we don't want to create any unintended consequences as a result 
of any legislative efforts and the question is how far we go. 
It's gotten beyond us in terms of the magnitude of the problem.
    Mr. Hughes, I know you spoke of the fact that you think we 
should concentrate on fraud and deception. But what is wrong 
with making it comparable to the ``do not call'' list and 
getting the consent of the user before this programming can be 
imbedded?
    Mr. Hughes. So, before you get to that analysis you need to 
make a decision about what you are pulling within scope. I 
think the NAI would strongly support transparency and 
accountability in download processes. The practices of drive-by 
downloads are simply wrong and need to be stopped. And for any 
download onto your computer there should be some standards of 
notice and choice and transparency associated with that coming 
onto your system.
    But in defining that, in H.R. 29 in the House of 
Representatives, it's done under the definition of computer 
software. What we find is that defining it narrowly enough is a 
real challenge, a real challenge. I think it has been the 
biggest flaw that I have seen in spyware legislation to date. 
We cannot find a definition that is tight enough to focus only 
on the acute problem of spyware without creating unintended 
consequences.
    So, I think we need to step back from the technology and 
have a behavioral approach. Focus on the behaviors that sit 
behind the technology. Those purveying spyware are simply going 
to move onto another technology if we eliminate their ability 
to use some method of software today.
    Senator Snowe. Is it because you have to make it 
technology-specific in the definition, or are you----
    Mr. Hughes. We have seen that in some software.
    Senator Snowe. I just know that some of the anti-spyware 
programs, for example, haven't even had the capability to keep 
up with the kind of spyware that's being developed. So, if 
that's problematic, how is the individual consumer going to 
keep up? That's the issue here. I am just afraid that this 
problem has gotten so great that if we don't take an aggressive 
approach in attacking this problem, it will get out of the hand 
and it will be virtually impossible.
    I don't know if the legislation can ultimately define or 
capture all of the technology. I understand that, we authorized 
the Telecommunications Act in 1996, and no one could foresee to 
what extent it would be outdated because of the advent of so 
many different forms of technology, including wireless, in that 
process. But on the other hand, I don't see how you are going 
to get a hold of this problem through fraud and deception 
alone. I just wonder if it's going to be aggressive enough, or 
if there are enough resources that can be applied to the states 
and to the FTC to do what it needs to do to get at those who 
are purveying this kind of programming.
    Mr. Hughes. Senator, let me respond in two ways. First, I 
would concur fully with Mr. Moll in his description of a 
layered approach. We'd call it a holistic approach. We think 
that the response to spyware needs to have a number of 
components, legislation is clearly a component, but I think the 
legislative component is really more tied to the deterrent 
effect of enforcement, rather than the legislation itself. We 
also need a technology as a response. We also need consumer 
education. I think the one thing missing from Mr. Moll's list 
is we also need industry best practices and self-regulation. In 
fact, those four things are the four major panels at this event 
that we're holding tomorrow. We are going to be examining all 
of those. I think we need to respond to all of those things.
    The second response I would like to give you is that during 
the canned spam debate, the biggest area of contention was 
whether we go with an opt-in versus an opt-out standard. There 
was an enormous amount of media around that single issue. Do we 
require consent before you send a message or do we require you 
to include an opt-out in each message, so that if a consumer 
doesn't want to receive the next one they can say no. At the 
end of the day I think what we found was that substantive 
standard was really irrelevant to spammers, because regardless 
of what standard was created, they were going to go on and 
spam.
    I think the same situation exists today with the spyware 
problem. We should focus on the behavior of spyware and the 
details around those sort of fine-tuning substantive 
provisions, that we should be very careful to protect 
legitimate uses of technology in that industry.
    Senator Snowe. Mr. Moll and Mr. Schwartz, do you think that 
we can conquer this problem effectively in that regard?
    Mr. Moll. Well, Senator, I think that you are correct in 
your belief that this is a problem that has gotten very far out 
of the tube, and I don't see much hope of us getting it back 
in. I believe that, as you state, there needs to be an 
aggressive approach as a result. One of the things that I 
included in my remarks is that we are really dealing with an 
organized threat, and in many ways it means that the innovation 
on the part of spyware today is compounded, because you have 
these guys working together in new ways. They create more 
stuff, more frequently, and it's much more innovative. I think 
that to try and be light-handed so, we don't ruffle the 
feathers of advertisers, will have an ill-effect in this 
regard. I think these guys are going to continue to go forward 
and find the edge of the law very quickly.
    Mr. Schwartz. Senator, I agree that transparency is an 
important value, and we do need to get to the point of notice 
and consent for software as it's delivered, and industry best 
practices is a good way of going about and doing that. We need 
to start talking about how we are going to put some of these 
standards in law, especially in regards to software that 
collects personally identifiable information. However, we do 
have the concern that there are some companies that are 
breaking existing law as it stands today, and how do we go 
about enforcing these new laws that we are going to put on if 
we can't enforce today's laws.
    So, as we start to talk about what we are going to add onto 
this, we need to keep in mind how we're going to do enforcement 
down the road.
    Senator Snowe. Thank you. Thank you, Mr. Chairman.
    Senator Burns. We've got a vote coming up at 11:30, so I am 
going to try to ask a couple questions here, and then we will 
end this part of the hearing.
    I was just wondering, as we look at this, Mr. Hughes, can 
you tell me about the various adware models that there are out 
there now, in particular, what kind of user consent or notice 
should be given, specifically for downloads of private 
computers in support of adware.
    Give us an idea--what's on the market out there, and Mr. 
Moll, you would also be a part of that, too, that's being used 
now and is it effective?
    Mr. Hughes. So we do not have, yet, in the adware industry, 
I think, a clearly defined set of best practices, but most 
definitely, concepts of fair information practices with notice 
and choice, where it is clear what is being downloaded, and how 
it is being downloaded, and what it's going to do once it's 
downloaded, and the opportunity for a consumer to consent to 
that practice--I think those are a absolutely necessary 
components for any business that is in any way interested in 
engaging in that.
    In addition, I think an incredibly important component is 
the ability to get rid of it, as well. You need to have the 
ability to uninstall whatever you have downloaded in a way that 
is complete and thorough, and in a way so that it doesn't pop 
back up again. So, we would encourage standards like that, and 
I think it is one of the topics we will be discussing at length 
tomorrow. It's an important tool for us, I think, in defining 
what are appropriate standards for the adware industry.
    Senator Burns. Maybe tomorrow I should go to New York and 
be that little fly on the wall and take notes.
    Mr. Hughes. We would love to have you.
    Senator Burns. Mr. Moll?
    Mr. Moll. Senator, I think that today it's all over the 
map. We have some interesting examples that we uncovered in the 
last week where, once presented with the option and 
notification of installation of adware, you actually cannot 
click no. The only way to proceed without a hard reboot of your 
computer, is to click yes. That's a practice that we think is 
typical of the kinds of trickery used by adware, and by spyware 
more broadly.
    I think it's important to look at that within the context, 
of three vectors of innovation we see right now coming into the 
industry. One of those is the means by which adware and spyware 
gain access to your computer. The second is the means by which 
they communicate--how silently they can operate, and the third 
is the means by which they perpetrate themselves. How deeply 
they can move on your system, and how hard they can be to find 
and remove. And I think that all three of these are elements 
that need to be addressed as we certainly think about best 
practices.
    Mr. Burns. I don't want to leave Mr. Schwartz out of this 
because I can see he has a comment here. There's been mention 
that spyware companies have posed as anti-spyware companies. Do 
you publish or does the industry have a list of the good actors 
or bad actors, is there a sort of a Better Business Bureau 
among your industry that people can consult?
    Mr. Moll. Senator, this is a great point. There exists one 
list today that's widely viewable, it's spywarewarrior.com. I 
think it's a good list, it's not well enough publicized or 
published. But beyond those who masquerade to be anti-spyware, 
while they, in fact, are spyware, a growing list of the anti-
spyware companies are using the very adware networks to market 
themselves. And I find both of these cases to be incredibly 
offensive, and a great step back for the technical solutions 
providers that are legitimate, like ourselves.
    Senator Burns. Mr. Schwartz?
    Mr. Schwartz. I agree with that last comment that it is a 
concern. We suggest to consumers that they read some of the 
more mainstream magazines about anti-spyware software. Consumer 
Reports has done some studies about anti-spyware software, 
CNET, Download.com, et cetera, have some ratings on it, so 
that's probably a consumer's best resource today, using a third 
party, reliable source to go to if you're interested in finding 
out more. Going back to your comment about industry, I would 
agree with Mr. Hughes, I'm looking forward to the discussion 
tomorrow as well, and we hope that it's the start of building a 
relationship with some of the adware companies and the networks 
who are all intertwined in some of this discussion.
    One of the problems that we're seeing today, though, is 
that a lot of the companies are using illegitimate practices to 
gain a foothold into people's computers, so we have a base of 
20 million or 50 million or 90 million computers, and then at 
that point they say, ``We're going to change our practices now, 
so you shouldn't do anything about us,'' after they're already 
on these 50 million or 90 million computers. That's just not 
right. We do have to look at what some of these companies have 
done in the past and go back and see what we can do about it 
today.
    Senator Burns. And there's some economic value there, also, 
it becomes pretty expensive trying to stay ahead of the bad 
guys, or react to the bad guys.
    Mr. Moll. Senator that is a great point. Webroot software 
was only 20 people a year and a half ago, today we are fully 
250 professionals, dealing solely with this problem.
    Senator Burns. That concerns me more than anything else, 
and then when we start adding legislation to this, it makes it 
even more complicated, and so we will have more questions as we 
move along. Congratulations on your group tomorrow, I think 
whenever you pull the industry together and understand the 
problem, and I know that you all do, and when industry takes a 
positive step on what we can do in the name of the consumer, 
because I know most of you say, ``If we don't have consumers, 
we don't have jobs,'' and so we take our job of policing, and 
the more we know about it, it is even more serious.
    I thank you for your testimony today. We will be in touch 
with all of you as we move this legislation. As you know, I 
approach these kinds of things as, do no harm, number one, and 
when you've got an additional farmer up here trying to deal 
with this, we can do harm and have some unintentional 
consequences that we don't want to have, to be right honest 
with you. So, I appreciate your testimony here today, and I 
appreciate your cooperation working with us, because I think 
it's time. I think it has implications that go way beyond just 
a commercial standpoint. We're dealing with something here the 
way people communicate and do it through my computer, in my 
house, that I never know anything about it. And it's bad people 
doing bad things to good people. And I'm very, very much 
concerned about that.
    We're going to leave the record open for a couple of weeks, 
if anybody wants to make any other comments, any other Senators 
that want to send you questions, we would hope that you would 
respond to them and the Committee, and I thank you very much 
for your testimony here today, we stand in recess.
    Hearing adjourned.


                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Today's hearing before the Senate Commerce Committee focuses 
attention on an important, and increasingly aggressive, threat to the 
privacy and security of the average American's computer. Specifically, 
today we examine the world of ``spyware.''
    Spyware is an invasive computer software that can harvest 
sensitive, personal information, and can compromise the security of 
computer systems. In many cases, spyware is installed without the 
user's knowledge or consent, and even if discovered, it is removed in 
most instances only with great difficulty.
    In some cases, spyware is merely annoying, forcing users to close 
unwanted pop-up ads. In other cases, however, spyware can be downloaded 
without a user's knowledge and used to collect personal data stored on 
a computer or to track an individual's web surfing habits.
    The most insidious spyware programs are capable of recording a 
computer user's keyboard strokes to steal bank account numbers, login 
names, and personal passwords. This form of spyware can also make 
computers more vulnerable to viruses and other security breaches.
    It is important that this committee consider steps that can be 
taken to protect consumers from spyware. For example, enforcing clear 
notice and consent requirements could minimize potential abuses without 
interfering with the creation of new and innovative technologies.
    I look forward to working with my colleagues to address these 
difficult issues.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                             C. David Moll

    Question 1. You argued that the End User License Agreement is a 
major part of the problem in the informed consent debate. What 
recommendations would you suggest to improve the EULA that will help 
consumers make more informed decisions?
    Answer. When considering a computer user's ability to make informed 
decisions about what programs they load onto their systems, there are 
many challenges posed by End User License Agreements (EULAs). There are 
ongoing efforts led by industry and academia to continue to refine the 
process of buying software online. Many companies, including Webroot, 
conduct usability testing to determine what language and format can be 
most conducive to users' willingness and ability to review the 
information presented to them as part of their purchase experience.
    However, in spite of these efforts, there is a wide range of EULA 
formats and some EULAs do not clearly convey the user's authorizations 
and obligations with regard to the software. Some EULAs may not be 
readily discernable due to formatting problems that lead to confusion 
about the licensing terms and conditions. For example, some EULAs may 
be excessively long, difficult to locate, or difficult to read due to 
the font selected. We see companies taking advantage of this reality to 
gain the user's ``consent,'' and then justify the download of the 
software and/or use of the user's computer resources by that software.
    Ultimately, we want EULAs to be presented in clear, concise 
language that draws immediate attention to the terms and conditions 
governing the use of the software and highlights the user's 
authorizations and obligations with regard to the software.

    Question 2. Enforcement is key in resolving the spyware issue. The 
anonymous nature of the Internet makes it difficult to track down the 
bad actors. Many argue that bad actors will not respect legislation. 
These skeptics believe that industry self-regulation is the preferable 
route to take. If Congress were to allow the industry to self regulate, 
how would you go about enforcing standards that the industry develops? 
If a bad actor is not going to abide by Federal legislation, how can 
industry do better?
    Answer. We agree that there will be cases which are very difficult 
to catch in a legal net, especially those cases involving companies 
that are based in countries lacking our same legal standards. The take 
down of what was called the ``ShadowCrew,'' which was the topic of the 
May 30 Business Week cover story is a good example of international law 
enforcement and industry cooperation.
    While we are seeing many instances of spyware emanating from 
countries outside the U.S., spyware purveyors are not solely outside 
the U.S.; nor are they all obvious criminals. When we assembled the 
list of top threats in our State of Spyware report, we found that most 
of the prevalent offenders are U.S. based companies. Enforcement 
actions like the one that the FTC brought against Seismic, help to 
clarify how current laws should be interpreted and applied to the 
spyware problem but may also be viewed as case specific.
    New legislation will even further clarify the FTC's role in 
protecting consumers as well as the application of the FTC Act when it 
comes to the purveyance of spyware. Moreover, new legislation will send 
a strong message to people in the spyware business or funding companies 
that engage in bad practices that they're walking on the wrong side of 
the law. However, as I stated in my testimony on May 11, 2005, 
legislation by itself, will not remedy the problem. Any legislation 
that is enacted must also work in tandem with industry best practices 
as well as consumer education.

    Question 3. A recent Los Angeles Times article detailed how major 
companies, such as Mercedes-Benz, Disney, and Dell, have inadvertently 
or unknowingly used adware programs in their ad campaigns. Companies 
purchase advertising from a provider, which then contracts out to 
additional providers, some of which engage in adware practices. Is 
there a way to address the demand side of the adware equation? How do 
we get companies to stop using adware as an advertising channel?
    Answer. This is the area where industry efforts can make a big 
difference. The companies you list, and many more like them, have a 
tremendous amount of brand equity to protect. The Center for Democracy 
and Technology and the FTC are working to find ways to educate large, 
well-respected companies about the adware food chain and outcome of 
their online advertising expenditures. We are very supportive of these 
efforts.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                              Ari Schwartz

    Question 1. Enforcement is key in resolving the spyware issue. The 
anonymous nature of the Internet makes it difficult to track down the 
bad actors. Many argue that bad actors will not respect legislation. 
These skeptics believe that industry self-regulation is the preferable 
route to take. If Congress were to allow the industry to self-regulate, 
how would you go about enforcing standards that the industry develops? 
If a bad actor is not going to abide by Federal legislation, how can 
industry do better?
    Answer. Industry-developed standards can be effectively enforced in 
two ways:

  <bullet> Advertisers can adopt standards as prerequisites for 
        partnering relationships. Companies like Verizon, Dell, and 
        Major League Baseball have developed policies for who they will 
        advertise with. If industry-set standards serve as the basis 
        for similar policies adopted by other large advertisers, this 
        will create strong pressure for adware vendors to abide by 
        those standards. Advertisers are the true customers of adware 
        vendors. They have a unique ability to change the behavior of 
        the adware companies.

  <bullet> Anti-spyware software vendors can use the standards as a 
        basis for flagging or blocking programs. As anti-spyware 
        software increasingly becomes a standard part of computer users 
        self-protection regimen, companies that do not abide by the 
        standards will find it difficult to attract and retain users.

    CDT believes industry initiatives thus provide a valuable 
supplement to strong enforcement of State and Federal laws. Private 
sector efforts can frustrate spyware vendors where traditional law 
enforcement might be difficult or where law enforcement resources are 
limited. They also allow for dynamic response to attempts by bad actors 
to create novel forms of spyware to skirt specific language in law.

    Question 2. A recent Los Angeles Times article detailed how major 
companies, such as Mercedes-Benz, Disney, and Dell, have inadvertently 
or unknowingly used adware programs in their ad campaigns. Companies 
purchase advertising from a provider, which then contracts out to 
additional providers, some of which engage in adware practices. Is 
there a way to address the demand side of the adware equation? How do 
we get companies to stop using adware as an advertising channel?
    Answer. The first step in addressing the demand side of the adware/
spyware problem is to make large companies aware that their advertising 
dollars may be supporting adware and spyware purveyors. These companies 
need to be shown the negative consequences for their brands of being 
associated with spyware and adware practices.
    Once large advertisers understand the problem, they will begin to 
demand that the networks and other intermediaries they partner with 
allow greater control over ad placement and stronger guarantees about 
excluding bad actors.
    Spyware companies rely on business structures that make it 
difficult to assign culpability when malicious software is tied into 
ads. However, if there is demand from large advertisers, advertising 
brokers will work to clean up these opaque networks and provide greater 
transparency.
    Over time, we believe improved transparency in the online 
advertising space and greater awareness of the adware and spyware 
problems will help stem the flow of money to spyware companies.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
